<html>
<title> - ENVIRONMENTAL MANAGEMENT PROGRAM: ACCELERATED CLEANUP</title>
<body><pre>[Senate Hearing 108-647]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-647

         ENVIRONMENTAL MANAGEMENT PROGRAM: ACCELERATED CLEANUP

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   TO

RECEIVE TESTIMONY REGARDING THE ENVIRONMENTAL MANAGEMENT PROGRAM OF THE 
  DEPARTMENT OF ENERGY AND ISSUES ASSOCIATED WITH ACCELERATED CLEANUP

                               __________

                             JUNE 17, 2004


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
96-414                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
              Clint Williamson, Professional Staff Member
                  Jonathan Epstein, Legislative Fellow


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     2
Cantwell, Hon. Maria, U.S. Senator from Washington...............     3
Craig, Hon. Larry E., U.S. Senator from Idaho....................    33
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     1
Friedman, Gregory H., Inspector General, Department of Energy....    16
Podonsky, Glenn S., Director, Office of Security and Safety 
  Performance Assurance, Department of Energy....................    21
Roberson, Jessie Hill, Assistant Secretary for Environmental 
  Management, Department of Energy...............................     5
Smith, Hon. Gordon, U.S. Senator from Oregon.....................    27
Wyden, Hon. Ron, U.S. Senator from Washington....................     3

                                APPENDIX

Responses to additional questions................................    51

 
         ENVIRONMENTAL MANAGEMENT PROGRAM: ACCELERATED CLEANUP

                              ----------                              


                        THURSDAY, JUNE 17, 2004

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Pete V. Domenici, 
chairman, presiding.

          OPENING STATEMENT OF HON. PETE V. DOMENICI, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. Good morning, everyone. We will get started.
    Now, I have listed as witnesses: the Honorable Jessie 
Roberson and Gregory H. Friedman, the Inspector General. Thank 
you very much for coming. Glenn Podonsky, the Director of 
Office of Security and Safety Performance, Safety Performance 
Assurance, the Department of Energy. Thank you very much for 
coming.
    I have a brief opening remark that I would like to make and 
I will do it as quickly as I can. This hearing of the Energy 
and Natural Resources Committee on the Office of Environmental 
Management at the Department of Energy is now in session. The 
purpose of the hearing is to evaluate the progress in the 
environmental management program of the Department of Energy 
and the complex issues associated with the conduct of 
accelerated cleanup.
    This program inherited the responsibility for the cleanup 
of 114 sites involved with past nuclear weapons activities. 
Those sites cover a vast area, over two million acres, the 
equivalent of the land area of Rhode Island and Delaware 
combined. Environmental Management, frequently called ``EM,'' 
is also responsible for remediation, processing and disposal of 
about 90 million tons of radioactive liquid--now, that use of 
that word ``radioactive'' does not mean that it is all the same 
or that it is all the same in toxicity; it varies, varies from 
transuranic all the way to high-level irradiated spent fuel 
rods--2,500 tons of spent fuel, 137 cubic meters of transuranic 
waste, 324 nuclear facilities, and 3,300 industrial facilities.
    This is an immense undertaking. It is only made more 
complicated by the substantial hazards associated with many of 
these materials. This program is the largest single function 
within the Department, at $7.4 billion in the President's 
budget proposal. This represents nearly one-third of the 
Department's total budget request.
    Now, that sounds kind of incredible when you take the 
entire Department with all its mission and you look up there 
and say, put a graph up there and graph out the functions and 
right off the bat you have got $7.4 billion for this aspect. 
The most interesting thing is if you had another one and you 
showed where it has been, where it is now and where it is 
going, of course the latter has not been easy to come by. But I 
believe the Honorable Jessie Roberson has done some things that 
are making us more able to understand where it is going.
    We have between us, Senator Bingaman and I in our various 
capacities, we have seen estimates that go off the wall as to 
what it is going to cost over 20 or 30 years.
    In addition to a progress report on the EM program, I look 
forward to learning from the witnesses today about the recent 
issues associated with worker safety and the concerns at the 
Hanford site and other current issues. I hope our witnesses 
today can address these complex issues and that we can all 
better understand the status of the cleanup at our facilities 
from the Cold War.
    Testifying today are the Honorable Jessie Roberson, 
Assistant Secretary of Energy for Environmental Management of 
the Department. I always appreciate your perspective of complex 
issues like we are discussing today. I want to thank you, 
Jessie, for the immense effort that you and Ines Triay put into 
the negotiations with the State of New Mexico to gain 
concurrence on a management plan for the cleanup of Los Alamos. 
It was not easy. It took a lot of effort and, just like other 
States, most will have something to thank you for; others will 
have something to complain about. But we will listen to both 
and surely you will, too.
    But they were also vital because they allowed progress to 
resume on the cleanup at Los Alamos and it did the same for 
other sites.
    Now, with that, that is my best effort at a summary. Now I 
would yield to my friend the ranking member, Senator Bingaman.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Thank you very much, Mr. Chairman. Thanks 
for having the hearing. It is a very important set of issues. 
Obviously, trying to clean up the nuclear laboratories and 
plants, the residue that we have from the Cold War and since, 
is extremely important and it is obviously costing billions of 
dollars and is expected to for many, many years.
    Let me thank Jessie Roberson for her good work and 
contribution to this effort. I know she is leaving her position 
next month, so this will probably be her last hearing before 
this committee. I appreciate the work she has done. Rather than 
go through any kind of a recitation of issues, I will wait and 
hear the witnesses' testimony and then have some questions.
    Thank you.
    The Chairman. Thank you.
    Senator Wyden. May I very briefly, Mr. Chairman?
    The Chairman. Yes, please.

           STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                        FROM WASHINGTON

    Senator Wyden. I am going to have to be in and out. First, 
Mr. Chairman, let me thank you for holding the hearing. This is 
very important to those of us in the Pacific Northwest. The 
bottom line for me, and I say this with all due respect to the 
Department, it is simply unacceptable to my constituents to 
leave 10 percent of the high-level nuclear waste in the Hanford 
tanks. That is just the bottom line here, and it does not 
matter what legalisms or financial inducements the Energy 
Department comes up with or what they call them. I think that 
the people of my State just feel that it is a significant 
safety problem to leave that much behind in leaking tanks.
    We are not going to accept turning Hanford into a national 
sacrifice zone. I believe that, with the Department's proposal 
to leave behind 10 percent of highly radioactive waste, that 
comes to more than 5 million gallons of radioactive 
contamination that would be left at the site and not cleaned 
up. That is just unacceptable.
    I want to let the chairman proceed expeditiously, but I 
really think that the Department's notion of accelerated 
cleanup essentially is a faster effort to walk away from a 
major health and safety problem. I for one am going to do 
everything I can to reverse this policy.
    Mr. Chairman, I thank you. I am going to have to be in and 
out a bit this morning and I appreciate the chance to make that 
brief comment.
    The Chairman. Senator, would you like to make a brief 
statement?

        STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR 
                        FROM WASHINGTON

    Senator Cantwell. Yes, thank you, Mr. Chairman. And I thank 
you as well for holding this hearing and giving attention to 
this issue, and to Senator Bingaman and Senator Wyden and Smith 
for supporting the request for a hearing on this issue.
    I believe that the DOE's environmental management oversight 
program and recent developments have made this hearing today 
even more important. I know, Secretary Roberson, that you are 
here today and that you have turned in your resignation earlier 
this week. You have probably had one of the toughest jobs in 
the administration, in the Department of Energy and in this 
area, and I appreciate your detail and attention to this and 
the fact is that these issues have been very controversial and 
I appreciate that you have tried to be open and honest with our 
office about that. We may not have always agreed on issues in 
the past, but you certainly have provided open and honest 
information.
    I think the issue that is the most frustrating to me is 
that if we were going to have a discussion about high-level 
waste and a discussion about what percentage of waste should be 
left in tanks, we should have had that discussion right here in 
this committee room. And instead the Department of Energy has 
done an end run on that debate by trying to make the American 
public think that somehow a State and the Federal Government 
can make a decision about high-level waste and how much to 
leave in the tanks and call it a day.
    I think it is absurd that the Department of Energy has done 
an end-run around these organizations. People deserve to have 
this fully debated and to have the safety and security of 
groundwater in the State of Washington, in Savannah River and 
in various parts of the rest of the country discussed. People 
deserve to have debate on the impacts and to have a proper 
policy put in place. Yesterday our attorney general sent a 
letter to President Bush, who just happens to be visiting the 
Northwest today, and I think that her statement sums up the 
concerns of all Washington State residents and probably those 
for the Pacific Northwest region as well. She said, quote:

    The bottom line is this: DOE's accelerated cleanup plan 
cannot depend on a shortened yardstick for success. We cannot 
allow the Federal Government to declare success by simply 
lowering the bar for cleanup standards.

    So I want to look at this issue and get some 
straightforward answers. I know that we have had this 
discussion before and it is very confusing to us in Washington 
State, because DOE has said at various points in time--in 2004 
DOE holds a press conference saying that it will continue to 
adhere to the Tri-Party Agreement, which calls for DOE to 
remove 99 percent of the waste in the tanks, and to do that 
through the vitrification plant. So that is what we have in one 
statement.
    Then earlier DOE issues a draft risk-based vision of 
Hanford and basically says: Well, less treated waste for 
disposal, for example 90 percent of the waste rather than 99 
percent, could save us $2 to $3 billion.
    So I am not even sure why we are having this discussion. 
The Department of Energy says it is going to live up to the 
Tri-Party Agreement and clean up 99 percent of the waste, yet 
you are having discussions saying, well, listen, maybe we will 
only do 90 percent. So the charade that the Department of 
Energy is doing is very clear to me and it is going to be very 
clear to the rest of America.
    It has taken us 3 years to get under the Enron charade, but 
I guarantee you we will get to the bottom of this. We will find 
out that the Department of Energy does not want to have a 
discussion and debate about the science of what is physically 
possible in the cleaning up of the tanks and what is 
environmentally safe. They want to have carte blanche and that 
is what they are trying to get at Savannah River, and that is 
what we are going to stop them from getting at Hanford.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    I forgot in my opening remarks to allude to the fact that 
you have served, Jessie, and you have found it within your life 
that you are going to proceed on to another career. I hope it 
is not the difficulty of this job that has caused that and from 
talking to you I assume it is not. I do not think any job in 
the world that you took would scare you away.
    Also, Mr. Gregory Friedman, we are very, very pleased that 
you have been Inspector General for the Department, and you 
will testify today. And I understand that your career dates 
back to 1974. I understand your career also includes work with 
one of DOE's predecessor agencies. We welcome you and your 
extensive experience that you bring with you.
    Finally, Mr. Glenn Podonsky, Director of the Office of 
Security and Safety Performance Assurance of the Department of 
Energy, will provide testimony on the recent evaluations 
conducted at the Hanford site.
    Do we have another witness or are you here to help 
somebody? You will be helping Glenn, is that correct?
    Ms. Worthington. Yes.
    The Chairman. What is your name?
    Ms. Worthington. Worthington, Patricia Worthington.
    The Chairman. We will just have that in the record because 
you may be helping from time to time.
    Ms. Worthington. Thank you.
    The Chairman. Let us proceed in the order that I discussed 
the witnesses. This is an issue that causes a lot of acrimony, 
shall I say, and we will keep it under control and I will do my 
best to moderate from time to time.
    If you have a written statement, we will leave it up to 
you. If you want to insert it, if you want to say the whole 
thing, you should have your chance.
    You heard the challenge from the distinguished Senator, two 
Senators, and if you can, address them. If you want to leave it 
for questions, that is okay.

  STATEMENT OF JESSIE HILL ROBERSON, ASSISTANT SECRETARY FOR 
ENVIRONMENTAL MANAGEMENT, DEPARTMENT OF ENERGY, ACCOMPANIED BY 
     ROY J. SCHEPENS, MANAGER, OFFICE OF RIVER PROTECTION, 
                      DEPARTMENT OF ENERGY

    Ms. Roberson. Well, good morning and thank you, Chairman 
Domenici. I would like to read my written statement.
    The Chairman. Please.
    Ms. Roberson. Of all the opportunities I have had to sit 
before all of you in one form or another, this is probably one 
I enjoy the most----
    The Chairman. Would you push the button somewhere in front 
of you there?
    Ms. Roberson. Is that better?
    The Chairman. That is better, right.
    Ms. Roberson. I really would like to have the opportunity 
to read the written statement.
    Again, good morning to you, Chairman Domenici, Senator 
Bingaman, Senator Wyden, Senator Cantwell, and to the staff of 
the other members. Good morning, and first of all I would like 
to start out by thanking you for all of your interest and 
support of this program throughout my term.
    First of all, if I could, I would like to introduce just a 
couple of people who are--I feel a little vulnerable here--IG, 
Office of Independent Assessment. So I do have a bit of support 
with me. I would like to introduce Lee Otis, the Department's 
General Counsel, who is sitting directly behind me; Roy 
Schepens, our Manager for our River Protection Project; and 
Rick Provencher, our Manager for Environmental Cleanup at 
Idaho, who are joining me here today.
    I am pleased to be here to continue the dialog that I 
started with this committee in 2002. When I was last before 
this esteemed committee, we were at the beginning stages of 
transforming a faltering cleanup program, a program that had 
lost sight of the path that it was intended to follow, which 
was to remedy the environmental legacy of the Cold War, a 
program recognized as the third largest liability of the 
Federal Government, behind only Federal employee and veterans 
benefits and the Federal debt, a program mired down in process, 
a program on an unfocused march with a bitter gift of ever-
increasing risk to future generations.
    All too often we forget why the Environmental Management 
program was created. This program, created in 1989, was devised 
to deal with an environmental legacy created by nearly half a 
century of nuclear weapons production and nuclear research 
activities shared and supported by over 100 sites in 32 States 
of the Union.
    No one site got to where it is on its own and neither will 
solutions be found on an individual isolated basis. Our Nation 
fought and won the Cold War and in its wake, a vast legacy was 
created, a legacy of approximately 88 million gallons of 
radioactive liquid waste, over 20 metric tons of plutonium, 
many tons of enriched uranium, three-quarters of a million tons 
of depleted uranium, 2,400 metric tons of spent nuclear fuel, 
108 metric tons of plutonium residues, and over 140,000 cubic 
meters of transuranic waste, all in need of disposition and 
remedy.
    In addition, there are over 3,000 facilities that supported 
and housed the nuclear weapons production program that have to 
be dealt with. Many of these facilities were built in the 
1940's, 1950's, and 1960's. In fact, we have one facility at 
Oak Ridge that has over 40 acres of contaminated floor space 
under a single roof. Many are radiologically contaminated and 
have beryllium, asbestos, and other forms of chemical 
contamination. We need to also remediate the contamination from 
under and around these facilities that resulted from many 
decades of operation.
    All this needs to be dealt with. It will not be remedied 
without hard work. We are extremely fortunate to have some of 
the best trained and most competent workers in the world 
working on this job at our different sites. The work is 
difficult and tedious. It requires training, engineering 
controls, procedures, and personal protective equipment that 
few can imagine.
    To get into a process area at one of our sites requires 
passing through security, radiological and nuclear checkpoints. 
To stabilize just one kilogram of plutonium requires a safety 
and security infrastructure that includes security guards, 
radiological control technicians, nuclear criticality 
engineers, ventilation engineers, plutonium chemists, trained 
nuclear operators wearing layers of anti-contamination 
clothing, respirators, thermoluminescent dosimeters, and leaded 
rubber gloves which are in a glove box that is specially 
designed to keep the radioactive contamination inside and 
controlled. This represents but a single work task that we have 
to complete.
    The legacy is here today. The infrastructure is only 
getting older and more difficult to maintain. We simply do not 
have the luxury of spending our time debating all the issues 
before us. We have to move forward. We owe our citizens a real 
and a responsible solution.
    Three years ago, the cleanup program was in need of an 
expedited transformation. Despite the fact that we had spent 
over $60 billion on this program in the 1990's and projected a 
$14 billion cost increase in just fiscal year 2001, little in 
the way of real, measurable risk reduction and environmental 
improvement was taking place. We embarked on a program that at 
its roots changed this program from risk management to 
accelerated risk reduction that would be safer for the workers, 
protective of the environment, and respectful of the taxpayer. 
We insisted that our progress be measurable and that we be held 
accountable for delivering on it.
    Today I stand before you and report that we have delivered 
on this commitment and more. We are putting in place the 
systems and processes to complete this work in our lifetime. In 
the last 3 years, we have taken significant risk out of the 
system, making communities and the environment safer, and I am 
glad to discuss site by site specific accomplishments. I have 
outlined in my written testimony specific accomplishments as 
well.
    In less than 3 years, we have reduced reportable accident 
and injury rates of our workers by over 35 percent. Our work 
force boasts one of the best safety records in government 
today, despite the fact that they deal with some of the most 
dangerous and hazardous material and operations. In less than 3 
years, we have decreased the cost to complete this program by 
over $50 billion, as documented by the U.S. Government 
financial reports of fiscal years 2001, 2002, and 2003.
    This program has delivered on its commitment. This program 
has demonstrated its success, that it is good for our workers 
and good for our communities, it is good for our environment, 
and it is good for our country.
    When I took this job in July 2001, Secretary Abraham made 
it clear that we could, and indeed should, expect more real 
progress at every site. The Secretary was not satisfied with 
the plan in place, a plan that called for a timetable of more 
than 70 years to complete at a cost of $300 billion. He said: 
``That is not good enough for me and I doubt it is good enough 
for anyone who lives near these sites.''
    To that end, he directed a Top-to-Bottom Review of the 
entire program. We completed that review in February 2002, and 
for some skeptics, the recommendations were viewed as 
unorthodox and flew in the face of a mindset comfortable with a 
program whose focus was compliance and risk management. The 
Top-to-Bottom Review exposed clear discrepancies in 
accomplishing our vital mission of risk reduction and 
environmental improvement. Innovative actions in all elements 
of the EM program were needed to make this program viable.
    Since the release of the Top-to-Bottom Review of the EM 
program, we have taken decisive steps to transform this once-
faltering program. We have introduced dynamic reforms. We have 
delivered fundamental change and achieved significant 
improvements in health, safety, and environmental protection.
    There are some who say that accelerating cleanup means that 
we need to cut corners and expose our workers to more hazards. 
Well, it is simply not true. In fact, the opposite is the case. 
Our best performing sites are also our safest sites. EM is no 
different than private industry; improved safety performance is 
a necessary precursor for improved operational performance. In 
order to accomplish our accelerated risk reduction and cleanup 
mission, we must improve safety performance first. We have done 
so and will continue to do so. Safety and results go hand in 
hand. Neither can be compromised if we are to reach our goals. 
We are committed to a mindset of continuous improvement and 
work to instill this philosophy in every worker's day to day 
decisions from start to finish of every project. For example, 
in August 2001, EM's Total Reportable Cases and Lost Workday 
Cases were 1.9 and 0.8 per 100 worker-years respectively. Our 
Total Reportable Cases and Lost Workday Cases are standard OSHA 
tools used to measure safety performance across all industry. 
Since then we have reduced our Total Reportable Cases to 1.1 
versus 1.9, and our Lost Workday Cases to 0.5 versus 0.8.
    These rates are significantly better than private industry, 
which OSHA reported in 2002, had a Total Reportable Case rate 
of 5.3 and Lost Workday Case rate of 1.6. Our rates are among 
the best in the Federal Government as well. The construction 
industry alone had rates of 7.1 for Total Reportable Cases and 
2.8 for Lost Workday Cases.
    We have not stopped, nor will we stop, paying attention to 
safety. We will continue to demand improvement and hold 
ourselves accountable to the highest standards. Success of our 
program begins and ends with safety performance.
    There are others who say we are doing a dirty cleanup. That 
could not be further from the truth as well. We have taken 
decades off the time to complete cleanup at most of our sites 
and we will complete the entire EM cleanup a generation earlier 
than planned. Removing the hazards and source terms 
significantly before anyone had ever hoped or planned. For 
example, in the cleanup of our liquid waste tanks, for which we 
have received much notoriety, notoriety that I believe 
overshadows the benefits in risk reduction that is well within 
our grasp--if I may, please direct your attention to our 
charts. Many of you have seen these before. These are before 
and after pictures of liquid waste tanks at Hanford, Savannah 
River, and Idaho.
    This is Hanford, typical tank at the top, Tank C106 at the 
bottom. As you can see, the weld seams of the tank at the 
bottom of the tank are visible. We also have photos depicting 
the bottom of Tank 17 at Savannah River and you will see the 
same thing. And the last one is the bottom of the Tank WM185 at 
Idaho, which we see the bottom of in the bottom picture as 
well.
    I believe the old adage that a picture speaks a thousand 
words is quite appropriate here. We are committed to meet our 
responsibilities. Cleanup of our liquid waste tanks will meet 
all requirements, like the stringent Nuclear Regulatory 
Commission's standards and safe drinking water standards. We 
are not evading our responsibility. Upon completion of cleanup, 
many of these liquid tanks will pose no more of a radiological 
risk to a person than flying from coast to coast. Our cleanup 
will be protective of the environment and fully support the 
future uses of the site. Our cleanup standards are based on 
good science, and require full review by State and Federal 
regulators.
    Others claim that we are compromising national security in 
our cleanup. We are in full compliance with the design basis 
threat. We are working to ensure all requirements have been met 
by 2006, as directed by the Secretary. More importantly, we are 
safely and securely disposing of radioactive waste, and we are 
consolidating our once-scattered special nuclear materials 
inventory into fewer, more robust and secure locations.
    There are still others who say that we have delivered less 
cleanup than we had promised. The truth is at nearly every site 
we are doing more real cleanup today than anyone could ever 
have imagined in the 1990's. We have dug up buried waste in 
Idaho. We are tearing down facilities in Savannah River. Rocky 
Flats, the facility that manufactured nearly every single 
plutonium pit in the United States stockpile, has no more 
special nuclear material. The West Valley site in New York 
completed shipping its spent nuclear fuel.
    Prior to the Top-to-Bottom Review, EM had lost its focus on 
its core mission, the mission that the program was established 
to solve, to address cleanup of the Nation's Cold War nuclear 
weapons research and production legacy. In the last 3 years, we 
have established a new floor of performance not seen in this 
program and our strategy has begun to pay dividends and a 
return on the investment that we made.
    I have included in my written statement highlighted 
examples of our progress, so I will not repeat them here. These 
are visible, these are real and these demonstrate results, the 
results of our ability to accelerate cleanup and reduce our 
estimated life-cycle costs while showing to our public and 
surrounding communities the Department's commitment to improve 
worker safety, reduce health risks, and eliminate environmental 
hazards.
    We can deliver significant risk reduction and cleanup, as I 
stated earlier, in combination with improved safety 
performance. Accelerating risk reduction and cleanup, in 
concert with safety performance, accomplishes consequential 
outcomes important to the public, our communities, and for the 
generations that follow us.
    In conclusion, we commit to never going backward to a time 
when we measured success by how much we spent, not by how much 
real environmental improvement was achieved. We must never 
again believe the falsehood that it is a choice between being 
safe and doing work, for it is only when we do our work that we 
are really safe. We must not, by our inaction, allow this 
legacy to become our children's, our grandchildren's, or our 
great-grandchildren's problem. It is for us to solve and for us 
to complete this work on our watch.
    We must demand excellence and never again accept that this 
job is too hard or too dangerous to complete. We have 
demonstrated that we can do the work, that we can do it safely, 
that we can complete it in our lifetime. We have demonstrated 
that this cleanup can be done in a way that is safe for the 
worker, protection of the environment, and respectful to the 
taxpayer.
    Three years ago we started down this path; however, we must 
continue to better our performance and to look beyond the gains 
we have made to achieve our vision and the results that will 
truly be groundbreaking for the benefit of the generations that 
follow us. I have challenged our partners in cleanup; our work 
force, our contractors, our regulators, our communities, as 
much as you challenged me in 2001 as I went through the 
confirmation process for this position. We need all of those 
interested in joining us in our vision of cleanup to put their 
most innovative ideas and people forward. We must not lose our 
momentum that has been established through collaboration and a 
singular focus of delivering meaningful results for the 
American public. We are committed to employ our resources to 
show meaningful results.
    As we move forward in getting these results, one thing for 
sure I can promise you is that this program will be criticized. 
This program was criticized when I came in for moving too slow 
and now we are criticized for moving too fast. But after all, 
this program is based solely on solving existing environmental 
problems. Every morning when we begin our day, we start with a 
new challenge.
    It is a problem-rich environment. That was what the program 
was designed to address. But we should remember, by design, 
critics see what is. They only see tank waste. They only see 
the most dangerous building in America at Rocky Flats. They 
only see the contamination on the Columbia River. Our 
responsibility is to see what is, but also to see what can be 
and to turn that into a reality.
    The only measure of our success should be positive, 
measurable, environmental improvement. The longer we wait, the 
greater the potential risk. I ask for your continued support in 
this very important work. We are safer today than we were last 
year and we must stay the course so that we are safer next year 
than today. The potential is definitely there to lose what we 
have gained should we fail to stay true to our commitments; a 
cleanup that is safe for the worker, protective of the 
environment, and respectful of the taxpayers.
    Thank you very much and I look forward to your questions 
and answers.
    [The prepared statement of Ms. Roberson follows:]

  Prepared Statement of Jessie Hill Roberson, Assistant Secretary for 
             Environmental Management, Department of Energy

    Mr. Chairman and Members of the Committee, I take great pleasure 
and pride today to discuss the transformed Environmental Management 
Program in the Department of Energy, our progress in implementing 
cleanup reform, and the importance of sustaining this momentum for the 
benefit of our workers, our communities, our environment, and the 
generations to come.
    All too often, we forget why the Environmental Management Program 
was created.
    This program was created in 1989 to deal with the environmental 
legacy created by nearly a half-century of nuclear weapons production 
and nuclear research activities, activities that were conducted at over 
100 sites in 32 states of this Union. In the United States Government's 
Financial Report, this environmental legacy was recognized as the third 
largest liability of the Federal Government, behind only Federal 
Employee and Veteran's Benefits and the Federal Debt. In fiscal year 
2001, the cleanup cost associated with environmental damage and 
contamination was reported by the Treasury Department to be $306.8-
billion. The Environmental Management program was the largest component 
of that liability.
    Our nation fought and won the Cold War. In its wake, a vast legacy 
was created including approximately 88 million gallons of highly 
radioactive liquid waste in 239 tanks, with some capable of holding 
more than 1-million gallons each. Many were built during the Manhattan 
Project or in the early stages of the Cold War and some of these are 
known to have leaked. Additionally, this nuclear legacy includes over 
20 metric tons of plutonium, many tons of enriched uranium, three-
quarters of a million tons of depleted uranium, 2,400 metric tons of 
spent nuclear fuel, 108 metric tons of plutonium residues and over 
140,000 cubic meters of transuranic waste. All of this needs to be 
remedied.
    In addition, there are over 3,000 facilities that supported and 
housed the nuclear weapons production program that have to be 
addressed. Many of these facilities were built in the in the 1940's, 
50's, and 60's. In fact, we have one facility, at Oak Ridge, that has 
over 40 acres of contaminated floor space under a single roof. Many are 
radiologically contaminated and have beryllium, asbestos, or other 
forms of chemical contamination. We need to also remediate the 
contamination from under and around these facilities that resulted from 
the many decades of operation.
    We are extremely fortunate to have some of the best trained and 
most competent workers in the world to complete this job. The work is 
difficult requiring training, engineering controls, procedures, and 
personnel protective equipment that few can imagine. To get into a 
process area at one of our sites requires passing through security, 
radiological, and nuclear checkpoints. To stabilize just a kilogram of 
plutonium requires a safety and security infrastructure that includes 
dozens of security guards, radiological control technicians, nuclear 
criticality engineers, ventilation engineers, plutonium chemists, and 
trained nuclear operators wearing layers of anti-contamination 
clothing, respirators, thermo luminescent dosimeters (TLDs), leaded 
rubber gloves which are in a glove box that is specially designed to 
keep the radioactive contamination inside and controlled to prevent a 
nuclear criticality. This represents but a single-work task.
    This legacy is here today. Doing nothing or keeping the status quo 
only makes things less safe. The infrastructure is only getting older 
and more costly to maintain. This infrastructure across the complex 
costs us literally billions of dollars every year just to maintain. 
Doing nothing is simply not an option.
    Three years ago, the cleanup program was badly in need of 
refocusing. Despite the fact that we spent more than $60-billion on 
this program in the 1990's and our projected cost to complete this 
program increased in FY01, little in the way of real, measurable risk 
reduction was taking place. We embarked on a program that at its roots 
was very simple; change this program from risk management to 
accelerated risk reduction that would be safe for the workers, 
protective of the environment, and respectful to the taxpayers. We 
insisted that our progress be measurable and that we be held 
accountable for our performance.
    Today, I can report to you that we have delivered on this 
commitment and more. We are putting in place the systems and processes 
to complete this work. While I will discuss site-by-site specific 
accomplishments later in my testimony, overall in the last three years, 
we have taken significant risk out of the system, making communities 
and the environment safer. In less than three years, we have reduced 
reportable accident and injury rates of our workers by over 35 percent; 
our workforce boasts one of the best safety records in government today 
despite that fact that they deal with some of the most dangerous and 
hazardous materials and operations known to man. In less than three 
years, the Department has reduced its environmental liability by a 
total of $55 billion as documented by the United States Government 
Financial Reports of Fiscal Year 2001, 2002, and 2003. These reports 
show that this is the only major program in government that actually 
decreased its financial liability in that timeframe. In less than three 
years, we have shortened the time to complete this work by 35 years, 
essentially eliminating the need for another generation of Cold War 
cleanup workers to finish the job.
    This program has delivered on its commitment. This program has 
demonstrated success that is good for our workers and our communities; 
is good for our environment, and is good for our country.
    When I took this job in July 2001, Secretary Abraham made it clear 
that we could, and indeed should, expect more real progress at every 
site. The Secretary was not satisfied with a plan that called for a 
timetable of some 70 years to complete and at a potential cost of $300 
billion. ``That is not good enough for me'', he said, ``and I doubt it 
is good enough for anyone who lives near these sites.'' To that end, he 
directed a Top to Bottom Review of the entire program. We completed 
that review in February 2002 and for some skeptics, the recommendations 
were viewed as unorthodox and flew in the face of a mindset comfortable 
with a program whose focus was mainly compliance and risk management. 
The Top to Bottom Review exposed clear discrepancies in accomplishing 
our vital mission of risk reduction. Innovative actions in all elements 
of the EM program were needed to make this program viable.
    Since the release of the Top-to-Bottom Review of the EM program we 
have taken decisive steps to transform this once faltering program. We 
have introduced dynamic reforms, delivered fundamental change and 
achieved significant improvements in health, safety, and environmental 
protection.
    There are some who say that accelerating cleanup means that we are 
cutting corners and exposing our workers to more hazards. That is not 
true--in fact, the opposite is the case. Our best performing sites are 
also our safest sites. EM is no different than private industry; 
improved safety performance is a necessary precursor for improved 
operational performance. In order to accomplish our accelerated risk 
reduction and cleanup mission, we must improve safety performance 
first. Safety and results go hand in hand. Neither can be compromised 
if we are to reach our goals. We are committed to continuing to instill 
this philosophy in every worker's day-to-day decisions from start to 
finish of every project. For example in August 2001, EM's Total 
Reportable Cases (TRC) and Lost Workday Cases (LWC) were 1.9 and 0.8 
per 100 worker-years (200,000 hours), respectively. TRC and LWC are 
standard OSHA tools used to measure safety performance across all 
industry. Since then we have reduced our Total Reportable Cases to 1.1 
and Lost Workday Cases to 0.5. These rates are significantly better 
than private industry, which OSHA reported in 2002, had a Total 
Reportable Cases of 5.3 and Lost Workday Cases of 1.6. Indeed, our 
TRC's and LWC's are among the best in the federal government. The 
construction industry alone had rates of 7.1 for Total Reportable Cases 
and 2.8 for Lost Workday Cases in 2002. We have not nor will we stop 
paying attention to safety. We will continue to demand improvement and 
hold ourselves accountable to the highest standards. Success of our 
program begins and ends with safety performance.
    There are others who say that accelerated cleanup means a dirty 
cleanup. That could not be further from the truth; we have taken 
decades off the time to complete cleanup at most sites and will 
complete the entire EM cleanup a generation earlier than previously 
planned. Removing the hazards and source terms significantly before 
anyone had ever hoped or planned is good for the environment. Our 
cleanup will be protective of the environment and fully support the 
future uses of the site. Our cleanup standards are based on good 
science, and require full review and approval by the state and federal 
regulators. Just as important, we work with our communities 
stakeholders day-in and day-out, the recipients of the benefits of 
cleaning up and closing a site earlier.
    Others claim that we are compromising national security in our 
cleanup. We are on schedule to meet all the new security requirements 
as directed by the Secretary. Just as important, we are safely and 
securely disposing of radioactive waste, and we are consolidating our 
once scattered special nuclear materials inventory into fewer, more 
robust and secure locations.
    There are still others who say that we have delivered less cleanup 
than we had promised. The truth is at nearly every site we are doing 
more real cleanup today then anyone could have ever imagined in the 
1990's. We have dug up buried waste in Idaho; we are tearing down 
contaminated facilities at Savannah River. Rocky Flats, the facility 
that manufactured every single plutonium pit in the US stockpile, has 
no more special nuclear material. Our West Valley Site in New York 
shipped its spent nuclear fuel off-site to a more secure location. 
Prior to the Top to Bottom Review, EM had lost focus on its core 
mission, the mission that the program was established to solve--
addressing the cleanup of the Nation's Cold War nuclear weapons 
research and production legacy. In the last 3 years, we have 
established a new floor of performance not seen before in this program 
and our strategy has begun to return on the investment that we made. 
Some examples of this progress include:
    At the Savannah River Site, we have

  <bullet> Increased waste loading in the Defense Waste Processing 
        Facility (DWPF) by over 30 percent, resulting in a one-third 
        reduction in the number of canisters to be produced that will 
        require deep geologic isolation.
  <bullet> Completed packaging of all plutonium metal and initiated 
        plutonium-oxide packing operations.
  <bullet> Reduced liquid waste inventory volume by over 1 million 
        gallons.
  <bullet> Repackaged and disposed of the worst 10 percent of the 
        site's depleted uranium.
  <bullet> Completed de-inventory and commenced deactivation of the F-
        Canyon facility.
  <bullet> Completed dissolving plutonium residues through the H-Area 
        HB-Line.
  <bullet> Attained a shipping rate of 2,000 cubic meters of TRU waste 
        per year.
  <bullet> Emptied two spent nuclear fuel basins, consolidating all 
        material into L-Basin.
  <bullet> Demolished 48 facilities including 46 industrial facilities 
        and 2 nuclear buildings.

    At our Hanford Site, we have

  <bullet> Completed waste retrieval from C-106, the first at the 
        Hanford tank farms; retrieval of tank S-112 is 83 percent 
        complete; retrieval equipment installations are nearing 
        completion on the next four tanks.
  <bullet> Removed over 99 percent of pumpable liquids from single-
        shell tanks and over three million gallons to date. Today, only 
        40,000 gallons remains to be pumped from one tank.
  <bullet> Placed all plutonium in safe, stable 3013 storage 
        containers.
  <bullet> The Waste Treatment Plant (vitrification plant) construction 
        is over 25 percent complete.
  <bullet> Stabilized and packaged all plutonium residues.
  <bullet> Commenced Fast Flux Test Facility deactivation on April 7, 
        along with draining the sodium coolant.

    At the Rocky Flats Environmental Technology Site, we have

  <bullet> Completed 80 percent of the project and are firmly on track 
        for 2006 closure.
  <bullet> Removed over 85 percent of the glove boxes--1,241 of 1,457.
  <bullet> Completed removal of all weapons grade special nuclear 
        material.
  <bullet> Demolished over 350 structures.

    At the Idaho National Laboratory, we have

  <bullet> Emptied and cleaned five large waste pillar and panel tanks.
  <bullet> Completed pilot waste excavation work at Waste Area 7.
  <bullet> Deinventoried 3 spent nuclear fuel pools, placing over 93 
        percent of the fuel at Idaho in safe, dry storage with the 
        remaining fuel being stored in the state of the art CPP-666 
        facility.
  <bullet> Constructed and commenced operation of a 500,000 cubic meter 
        disposal facility for the disposal of remediation waste.

    In Ohio, we have

  <bullet> Removed all legacy transuranic (TRU) waste from the Mound 
        Site.
  <bullet> Removed all Plutonium-238 from the Mound Site and all 
        nuclear material from the Fernald Site.
  <bullet> Decontaminated and demolished 57 percent (77) of the 
        facilities at Mound and 75 percent (157) of the facilities at 
        Fernald.

    At the West Valley Demonstration Project Site, we have

  <bullet> Removed all spent nuclear fuel.
  <bullet> Emptied and decontaminated the spent nuclear fuel basin.
  <bullet> Completed vitrification (275 high-level waste canisters 
        generated) and melter shutdown.

    At Oak Ridge, we have

  <bullet> Completed uranium converter removal operations in Building 
        K-29, 31, and 33 at East Tennessee Technology Park.
  <bullet> De-fueled tower shielding reactor.
  <bullet> Removed all EM spent nuclear fuel from the site.
  <bullet> Disposed of over 40,000 cubic meters of low-level and low-
        level mixed waste.

    At the Waste Isolation Pilot Plant, we have

  <bullet> Disposed of nearly 20,000 cubic meters of TRU waste, safely 
        receiving 2,600 waste shipments involving more than 2.6-million 
        highway miles.
  <bullet> Completed removal of TRU waste at four small-quantity sites 
        and recently initiated TRU shipments from the Nevada Test Site.
  <bullet> Closed Panel 1; Panel 2 is receiving waste; Panel 3 is under 
        construction.
  <bullet> Submitted our Recertification Application signifying five 
        years of safe operation.

    I can go on and on with examples of accelerated risk reduction and 
cleanup. These are visible, these are real and these results 
demonstrate our ability to accelerate schedule and reduce life cycle 
cost while showing to our public and surrounding communities the 
Department's commitment to improve worker safety, reduce health risks 
and eliminate environmental hazards.
    So you may have a better comprehension of the magnitude of our 
cleanup results, I would like to insert for the record a copy of our 
recent corporate performance measures. EM's Performance Measures is a 
compilation of the program's sixteen complex-wide performance measures. 
As you can see, we can deliver significant risk reduction and cleanup 
and, as I stated earlier, in combination with improved safety 
performance. Accelerating risk reduction and cleanup, in concert with 
exceptional safety performance, accomplishes consequential outcomes 
important to the public, our communities, and for the generations that 
follow us.

                       WE HAVE OUR CHALLENGES TOO

    As we continue to challenge the status quo, we may be confronted 
with legal actions and court decisions that will direct us to alter or 
modify our activities from the accelerated cleanup and closure path. We 
will continue to work diligently with all concerned parties to avoid 
interruptions in reducing risk and advancing cleanup for the public.
    We expect to be challenged on our delivery of Government Furnished 
Services and Items, or GFSI. We are accountable on delivery of GFSI and 
we expect to be held to our commitments.
    Also, we have challenged our managers at all levels to stay true to 
our commitment and employ our corporate performance measures and 
baselines as an accountability and success gauge assessing our progress 
as well as a tool that alerts us when management action or intervention 
is warranted.
    With the Idaho District Court decision on Waste Incidental to 
Reprocessing, the Department's ability to proceed prudently with 
accelerated risk reduction for some activities is drawn into question. 
The decision makes it difficult, if not impossible, for us to undertake 
all of the actions planned at Idaho, Hanford and Savannah River Site to 
aggressively reduce risks posed by wastes stored in tanks at those 
sites--actions we had committed to take, in agreement with our host 
states, before the court decision.
    The Senate agreed to provisions, which if enacted into law, would 
provide fiscal year 2005 funding and enable DOE to proceed with the 
full suite of previously planned accelerated cleanup activities for the 
Savannah River Site tank farms, pursuant to plans developed in 
conjunction with the State of South Carolina. In addition, the Senate 
agreed to allow FY 2005 funding for certain critical tank waste cleanup 
activities at Idaho and Hanford, pursuant to plans approved by the 
states of Idaho and Washington.

                               CONCLUSION

    Three years ago we started down this path; however, we must 
continue to better our performance and to look beyond the gains we have 
made to achieve our vision and the results that will truly be 
groundbreaking for the benefit of the generations that follow us. I 
have challenged our partners in cleanup; our workforce, our 
contractors, our regulators, our communities, and all those interested 
in joining us in our vision of cleanup to put their most innovative 
ideas and people forward. We must not lose our momentum that has been 
established through collaboration and a singular focus on delivering 
meaningful results for the American public. We are committed to employ 
our resources to show meaningful results.
    The job is not done until it is done. We cannot be complacent; we 
must continue to do better. It is not done when we develop a plan--it 
is not done when we agree to a milestone--it is not done when we ask 
for funding--it is not done when we sign a contract--it is not done 
when we get money. It is not done until it's done and there is positive 
and measurable risk reduction for the investment.
    The only measure of success will be positive, measurable 
performance. The longer we wait, the greater the potential risk. I ask 
for your continued support in this very important work. We are safer 
today than we were last year and we must stay the course so we are 
safer next year than today. The potential is there to lose what we have 
gained should we fail to stay true to our commitments; a cleanup that 
is safe for the worker, protective of the environment, and respectful 
of the taxpayers. I look forward to working with Congress and others to 
achieve this worthy goal. I will be happy to answer questions.

                                     EM'S COMPLEX WIDE PERFORMANCE MEASURES*
----------------------------------------------------------------------------------------------------------------
                                                                                              Actual
                                                       FY2003   FY2003    FY2004   FY2005   Lifestyle  Lifestyle
       Performance Measure               Unit          Target   Actual    Target   Target    Through     Scope
                                                                                              FY2003
----------------------------------------------------------------------------------------------------------------
Pu packaged for long-term         # Cont............    2,836     3,065    1,323       165      4,549      5,850
 disposition.
eU packaged for disposition.....  # Cont............      277       201      925       669      2,054      9,101
Pu/U residues packaged for        kg Bulk...........      934     1,140      254        76    107,659    107,782
 disposition.
DU & U packaged for disposition.  MT................    1,815     4,551        0         0      7,651    742,149
Liquid Waste eliminated.........  gallons (1000s)...      700         0    1,300     1,900          0     88,000
Liquid Waste Tanks closed.......  # Tanks...........        1         0        9         9          2        241
HLW packaged for disposition....  # Cont............      130       115      250       250      1,727     18,735
SNF packaged for disposition....  MTHM..............      857       807      633         1      1,446      2,420
TRU disposed....................  m3................    4,522     6,361   12,952    13,678     14,081    141,314
LL/LLMW disposed................  m3................   75,030   118,362   89,815   107,067    402,568  1,155,360
MAAs eliminated.................  # MAA's...........        0         1        1         1          7         14
Nuclear Facility Completions....  # Facs............        2         4        6        14         22        518
Radioactive Facility Completions  # Facs............        7        24       39        66        149        799
Industrial Facility Completions.  # Facs............       49       107      105       201        653      2,647
Geographic Sites Eliminated.....  Sites.............        2         1        0         2         76        114
Remediation Complete............  # Rel. Sites......      214       258      200       283      5,186     10,374
----------------------------------------------------------------------------------------------------------------
* Each of EM's 16 corporate performance measures is quantitative and focuses on those materials, wastes, environmental media, and facilities that comprise the majority of the risk to environment, public health, and safety. When these measures are completed, the EM program has accomplished its mission. Each measure is tracked in the context of the total life-cycle on 2035 accelerated schedule. The corporate performance measures are under strict configuration control, thereby establishing performance expectations and accountability. Through strict configuration control, EM is able to make crucial corporate decisions that will keep the program on track, monitor and control costs, and manage site closure expectations.
Consistent with Rev 9 of the Gold Chart (4/22/04).


    The Chairman. Thank you very much.
    We went well beyond the time allotted, but I think you 
deserved the opportunity to explain your theory and your 
accomplishments as you see them.
    Now let us go to Mr. Friedman, Inspector General of the 
Department.

          STATEMENT OF GREGORY H. FRIEDMAN, INSPECTOR 
         GENERAL, DEPARTMENT OF ENERGY, ACCOMPANIED BY 
         JOHN HARTMAN, ASSISTANT INSPECTOR GENERAL FOR 
              INVESTIGATIONS, DEPARTMENT OF ENERGY

    Mr. Friedman. Good morning, Mr. Chairman and members of the 
committee.
    I have a full statement which I would like to submit for 
the record and I will give an abbreviated statement. I am 
pleased to be here today to respond to your request to testify 
regarding recent allegations associated with occupational 
medical services and tank farm vapor exposures at the Hanford 
site. I am joined this morning at the witness table by Mr. John 
Hartman, the Assistant Inspector General for Investigations.
    The Chairman. Is that him right there? Nice to have you.
    Mr. Friedman. For several years my office has identified 
environmental cleanup and worker and community safety as 
significant challenges facing the Department. In 2003 the 
Office of Inspector General initiated an audit addressing 
whether the Department's Computerized Accident and Incident 
Reporting System, commonly referred to as CAIRS, contained 
accurate data. CAIRS is used by the Department to track 
occupational injuries and illness data. It provides management 
with the ability to calculate workplace safety indicators.
    In addition, in conjunction with this audit we conducted a 
limited review of accident and injury records to determine 
whether Hanford site contractors had correctly classified 45 
chemical vapor exposure incidents that had been made public in 
September 2003.
    Further, in February 2004, at the request of the Secretary 
of Energy, we initiated an investigation to address allegations 
of criminal misconduct associated with occupational medical 
services provided to Department and contractor employees at the 
Hanford site.
    Today I will discuss the results of these three reviews. In 
May of this year we issued an audit report that addressed the 
accuracy of data in CAIRS. This was a Department-wide review 
that included the Hanford site. Overall, we found there were 
inaccuracies in CAIRS data for a number of contractors. We 
concluded that this occurred because of weaknesses in the 
Department's quality assurance process over injury and illness 
reporting to CAIRS. Specifically, errors were not promptly 
corrected and there was no standard procedure for the 
Department or its contractors to reconcile data.
    With respect to the Hanford site, we found that in 2002 
Bechtel National, the contractor responsible for managing and 
operating the waste treatment and immobilization plant, 
internally reported 1,113 days of restricted work activity for 
its work force, while CAIRS listed only 552 days, a discrepancy 
of 561 days.
    We found a similar problem at CH2M HILL Hanford Group, the 
Department's contractor that manages the tank farm at Hanford. 
In conducting our review, we noted that CH2M HILL had not 
performed any reconciliation of its data in CAIRS with 
Occupational Safety and Health Administration logs. In 
addition, CH2M HILL did not routinely review data contained in 
logs utilized for workers compensation purposes. In this 
regard, we identified eight workers compensation claims that 
were not reported in CAIRS for the period January 1, 2000, to 
March 31, 2003.
    In the second matter that I referred to, we conducted a 
review of accident and injury records to determine whether 
Hanford contractors had correctly classified 45 chemical vapor 
exposure incidents. We concluded that Hanford contractors had 
for the most part correctly classified the chemical vapor 
exposure cases. However, we did find two exposures that were 
incorrectly classified as non-recordable.
    Finally, in February 2004 we initiated an investigation of 
specific allegations of criminal misconduct, and I emphasize, 
allegations of criminal misconduct, associated with 
occupational medical services provided to Department and 
contractor employees. There were three primary allegations: 
First, alteration and destruction of medical records by the 
Hanford Environmental Health Foundation, the Department 
contractor that provided occupational medicine and industrial 
hygiene services at the Hanford site; second, false injury 
reporting by Hanford contractors; and third, cover-up of 
ammonia vapor readings at the tank farm by contractor 
employees.
    The facts developed during the investigation did not 
substantiate criminal misconduct with regard to these 
allegations. We coordinated our investigative findings with the 
United States Attorney's Office for the Eastern District of 
Washington, which declined to pursue criminal prosecution in 
this matter. However, we observed several worker safety and 
health protocols that need to be addressed by Department 
managers.
    Specifically, the Department needs to ensure that: No. 1, 
vapor exposure readings are taken in a timely manner following 
reported exposure incidents and that exposure readings are 
appropriately documented; second, site employees on work 
restriction are assigned meaningful duties; third, patient care 
is not inappropriately influenced by whether the care will make 
an injury or illness recordable; and fourth, work restrictions 
following injuries and illnesses are identified and applied in 
a timely manner.
    During our investigation we interviewed over 70 individuals 
and it became clear that, despite costly health and safety 
efforts by the Department, a significant number of individuals 
interviewed had unresolved safety and health concerns about the 
work at Hanford and the quality of occupational health care 
provided to employees. We believe management needs to intensify 
its efforts to improve employee confidence in the occupational 
health and safety program.
    Mr. Chairman and members of the committee, this concludes 
my statement and I would be pleased to answer any questions.
    [The prepared statement of Mr. Friedman follows:]

     Prepared Statement of Gregory H. Friedman, Inspector General, 
                       U.S. Department of Energy

    Mr. Chairman and members of the Committee, I am pleased to be here 
today to respond to your request to testify regarding recent 
allegations associated with occupational medical services and tank farm 
vapor exposures at the Hanford Site. During the Cold War, the United 
States' nuclear weapons complex generated large amounts of hazardous 
and radioactive waste. The Department of Energy is responsible for the 
cleanup of numerous contaminated sites and facilities that supported 
nuclear weapons production activities. Associated with this is the need 
to protect the safety and health of the Department's workforce and the 
citizens in the communities surrounding these cleanup sites. For 
several years, my office has identified environmental cleanup and 
worker and community safety as significant challenges facing the 
Department.
    In 2003, the Office of Inspector General initiated an audit 
addressing whether the Department's Computerized Accident/Incident 
Reporting System (CAIRS) contained accurate data. CAIRS is used by the 
Department to track occupational injuries and illness data, and it 
provides management with the ability to calculate workplace safety 
indicators. In addition, in conjunction with this audit, we conducted a 
limited review of accident and injury records to determine whether 
Hanford Site contractors had correctly classified 45 chemical vapor 
exposure incidents that had been made public in September 2003. 
Further, in February 2004, at the request of the Secretary of Energy, 
we initiated an investigation to address allegations of criminal 
misconduct associated with occupational medical services provided to 
Department and contractor employees at the Hanford Site.
    Today, I will discuss the results of these reviews.

 DEPARTMENT'S REPORTING OF OCCUPATIONAL INJURIES AND ILLNESSES (DOE/IG-
                                 0648)

    On May 21, 2004, the Office of Inspector General issued an audit 
report that addressed the accuracy of data in CAIRS. The Hanford Site 
was among the sites included in the review. We found that there were 
inaccuracies in CAIRS data for a number of contractors. We concluded 
that this occurred because of weaknesses in the Department's quality 
assurance process over injury and illness reporting to CAIRS. 
Specifically, errors were not promptly corrected and there was no 
standard procedure for the Department or its contractors to reconcile 
data.
    With respect to the Hanford Site, we found that in 2002, Bechtel 
National Incorporated, the contractor responsible for managing and 
operating the Waste Treatment and Immobilization Plant at the Hanford 
Site, internally recorded 1,113 days of restricted work activity for 
its workforce while CAIRS listed only 552 days, a discrepancy of 561 
days. Similarly, in 2002, CH2M HILL Hanford Group, Incorporated (CH2M 
HILL), the Department contractor that manages the tank farms at 
Hanford, internally recorded 404 days away from work while CAIRS only 
listed 303, a discrepancy of 101 days. In conducting our review, we 
noted that CH2M HILL had not performed any reconciliation of its data 
in CAIRS with Occupational Safety and Health Administration (OSHA) 
logs. In addition, CH2M HILL did not routinely review data contained in 
logs utilized for workers' compensation purposes. In this regard, we 
identified eight workers' compensation claims that were not reported in 
CAIRS for the period January 1, 2000, to March 31, 2003.
    During the audit, Department management advised us that efforts 
were underway to address many of the data accuracy issues we 
identified. For example, shortly after a draft of our audit report was 
issued, the Department published the Environment, Safety and Health 
Reporting Manual, which required electronic reporting of data to CAIRS, 
strengthened verification procedures, and clarified roles and 
responsibilities.
    Our report recommendations included that the Department revise its 
policy to improve the accuracy and usefulness of data in CAIRS by 
requiring quarterly reconciliation of the various sources of contractor 
data with CAIRS.
    Management generally concurred with our recommendations, but 
advised us that it believed the report overstated the implications of 
CAIRS data errors. In our opinion, data quality problems such as those 
observed during our audit had the potential to affect the accuracy of 
occupational injury and illness indicators. These indicators provide 
the Department with the ability to assess the complex-wide 
effectiveness of its safety programs and to modify procedures to 
resolve recurring occupational injury and illness issues.

REVIEW OF SELECTED ISSUES PERTAINING TO VAPOR INHALATION ALLEGATIONS AT 
                     THE HANFORD SITE (OAS-L-04-14)

    As part of our audit of CAIRS, we conducted a limited review of 
accident and injury records to determine whether Hanford contractors 
had correctly classified 45 chemical vapor exposure incidents that had 
been made public in September 2003. Our review involved the examination 
of data drawn from employee records and contractor-maintained 
occupational injury and illness files. We concluded that Hanford 
contractors had, for the most part, correctly classified the chemical 
vapor exposure cases. Of the 45 items examined:

  <bullet> Thirty-five cases appeared to have been appropriately 
        classified;
  <bullet> Two exposures were incorrectly classified as non-recordable;
  <bullet> Four cases were not discrete incidents and duplicated other 
        cases; therefore, they were excluded from the universe of cases 
        we reviewed; and
  <bullet> Four purported exposures could not be appropriately 
        evaluated because we were unable to obtain sufficient 
        information as to their existence and/or nature.

    To determine if the cases were correctly classified, we used rules 
promulgated by OSHA. The OSHA definition of ``recordable'' incidents 
includes work-related injuries and illnesses that result in medical 
treatment beyond first aid, days away from work, restricted work 
activity, job transfer, loss of consciousness, cancer, chronic 
irreversible disease, or death. Recordable injuries and illness are 
required to be logged onto a Log of Work-Related Injuries and Illnesses 
(Form 300)--also known as OSHA 300 logs.

 INVESTIGATION OF ALLEGATIONS INVOLVING OCCUPATIONAL MEDICAL SERVICES 
      AND TANK FARM VAPOR EXPOSURES AT THE HANFORD SITE (I04RL003)

    In February 2004, in response to a request from the Secretary of 
Energy, we initiated an investigation of specific allegations of 
criminal misconduct associated with occupational medical services 
provided to Department and contractor employees at the Hanford Site. 
There were three primary allegations:

  <bullet> Alteration and destruction of medical records by the Hanford 
        Environmental Health Foundation (the Foundation), the 
        Department contractor that provided occupational medicine and 
        industrial hygiene services to about 11,000 contractor and 
        Federal workers on the Hanford Site;
  <bullet> False injury reporting by Hanford contractors; and
  <bullet> Cover-up of ammonia vapor readings at the tank farms by 
        contractor employees.

    This was a criminal investigation of specific alleged events and 
activities. Thus, we did not focus on general concerns with 
mismanagement, the technical aspects of tank vapor monitoring 
activities, whether medical services met professional standards, or the 
merit of individual worker's compensation claims. It was our 
understanding that these topics were included, either directly or 
indirectly, in other concurrent reviews involving the Hanford Site. In 
this regard, during the course of our investigation, we furnished 
relevant information regarding potential administrative or operational 
irregularities at Hanford to other offices performing programmatic 
reviews of these subjects.
    As part of our investigation, we conducted extensive interviews of 
over 70 current and former Department Federal and contractor employees 
at Hanford and obtained and analyzed volumes of documents. We also 
retained the services of an independent medical and OSHA regulations 
specialist to review medical files and safety records. During our 
investigation, we coordinated with the United States Attorney's Office 
for the Eastern District of Washington. At the conclusion of our 
fieldwork, we provided details of our investigative findings to the 
United States Attorney, the Chief of the Criminal Division, and an 
Assistant United States Attorney. The United States Attorney's Office 
declined to pursue criminal prosecution in this matter. The following 
are the results of our investigation:

Alleged inappropriate changes to patients' medical files by Foundation 
        personnel
    It was alleged that changes were made to patients' medical files by 
Foundation personnel that resulted in the misrepresentation of the 
nature, cause, extent, and/or severity of injuries or illnesses. 
Individuals believed that the changes were often prompted by pressure 
placed on Foundation physicians by contractor safety representatives. 
It was also alleged that the Foundation recently shredded documents, 
presumably to destroy evidence of wrongdoing.
    The facts developed during the investigation did not substantiate 
criminal misconduct with regard to the alteration and destruction 
allegations. Further, the independent medical and OSHA specialist we 
retained reviewed a sample of files relating to worker injuries and 
illnesses at the Hanford Site, including patient medical files, 
contractor safety files, and related documentation. The sample was 
drawn from a universe of cases identified--primarily by witnesses we 
interviewed--as potentially having improper alterations, documents 
removed, or issues relating to recordability. The specialist reported 
that: (1) the Foundation medical files were detailed, well-organized, 
and consistent with standard medical practices; (2) changes and 
modifications to documents and/or entries in medical files appeared to 
be reasonable and proper; and (3) no improper alteration, destruction, 
and/or manipulation of records was identified.

Alleged false injury reporting by Hanford contractors
    It was alleged that there was an ongoing conspiracy between the 
Hanford Site contractors' safety representatives and Foundation 
management to avoid creating and documenting recordable injuries. 
Witnesses provided examples in which contractors allegedly required 
injured workers who should have stayed home to report to work but 
perform no duties. We also examined aspects of contractor input of data 
into CAIRS.
    The facts developed during the investigation did not substantiate 
criminal misconduct with regard to injury or illness reporting. 
However, the investigation did verify a single instance in 1999 where a 
former Hanford Site subcontractor encouraged an injured employee to 
report to work following a work-related injury, yet the subcontractor 
had the employee perform no duties for five days. The employee remained 
on restricted duty for another 24 days. The subcontractor did not 
conceal the nature or cause of the injury itself, and it was documented 
as ``recordable.'' The subcontractor's actions were, nonetheless, 
troubling.

Alleged cover-up of ammonia vapor readings at the tank farms by 
        contractor employees
    It was alleged that employees of CH2M HILL had taken steps to cover 
up excessively high vapor exposure readings at the tank farms. High 
exposure readings allegedly were either misrepresented or not 
documented. Our investigation focused on the two specific vapor 
exposure incidents provided as examples by witnesses.
    The facts developed during the investigation did not substantiate 
criminal misconduct relating to alleged cover-up of vapor readings. 
With respect to the first incident, we identified conflicting testimony 
among various witnesses. We were unable to reconcile the differences 
through other witnesses or available documentation, and no independent 
corroborating evidence was found to support either version of events 
with certainty. With respect to the second incident, two witnesses 
initially identified to us as having valuable information did not 
provide such corroborating information.

Other alleged potential violations of law
    It was also alleged that: (1) the Foundation artificially inflated 
results in an annual performance self-assessment report; (2) a 
Department supervisor improperly removed relevant information from a 
report that was critical of a contractor's occupational injury and 
illness reporting and recordkeeping program; (3) the Foundation 
improperly maintained two sets of medical records; and (4) there was a 
conspiracy to develop an intentionally vague ``Record of Visit,'' a 
form that is used by the Foundation to record assorted information 
about a patient's visit, in order to facilitate the underreporting of 
injuries and illnesses.
    The facts developed during the investigation did not substantiate 
criminal misconduct with regard to these allegations. However, we 
received conflicting testimony from various witnesses with respect to 
the annual self-assessment allegation, and we were unable to reconcile 
these differences through other witnesses or available documentation. 
No facts were developed to support the other allegations in this area.
    Although criminal allegations were the focus of our investigation, 
we observed several worker health and safety protocols that we believed 
needed to be addressed by Federal managers at the Hanford Site. 
Specifically, we believed action was needed to ensure that:

  <bullet> Industrial Hygiene Technicians take vapor exposure readings 
        in a timely manner following reported exposure incidents at the 
        tank farms and document exposure readings in appropriate 
        reports. During an examination of the vapor exposure cover-up 
        allegation, we determined that a Technician failed to record 
        vapor monitoring data on a ``Direct Reading Instrument'' survey 
        form, as required by the contractor's tank farm monitoring 
        policies and procedures. The reading was recorded instead in a 
        log book. Additionally, the vapor reading was not taken until 
        approximately two hours after the exposure was reported.
  <bullet> Site employees on work restriction are assigned meaningful 
        duties. As noted previously, we identified a troubling instance 
        in 1999 where a former Hanford Site subcontractor encouraged an 
        injured worker to show up at the job site but perform no 
        duties, rather than remain at home. Despite the placement of 
        work restrictions on this employee and documenting the injury 
        as ``recordable,'' the subcontractor's actions raise questions 
        about its practices.
  <bullet> Patient care is not inappropriately influenced by whether 
        the care will make an injury or illness ``recordable.'' We 
        identified internal Foundation e-mails that some recipients 
        interpreted as encouraging physicians to emphasize 
        recordability of injuries over patient standard of care. We 
        received no confirmation that care was, in fact, improperly 
        compromised. However, unclear communications such as these 
        appear to have led to concerns over the provision of patient 
        care.
  <bullet> Work restrictions following injuries and illnesses are 
        identified and applied in a timely manner. We identified a 
        particular worker who was not given an immediate work 
        restriction following a diagnosis for beryllium sensitivity, in 
        accordance with standard medical practice.

    As noted previously, we interviewed over 70 individuals with 
knowledge of relevant operations at the Hanford Site. During this 
process, it became clear that, despite major health and safety efforts 
by the Department, a significant number of individuals interviewed had 
unresolved concerns about the safety of the work at Hanford, the 
potential for health problems as a result of this work, and the quality 
of occupational health care provided to Hanford employees. Given the 
challenges at Hanford, where the acknowledged risks to the workforce 
are significant, some level of concern would be understandable even if 
the Department's occupational health program worked perfectly. However, 
the number, scope, and continuing nature of the employee and citizen 
concerns we heard during our investigation suggest that management 
needs to intensify its efforts to improve employee confidence in the 
occupational health and safety program at Hanford. One example of an 
action we believe would be beneficial is evaluating current mechanisms 
for receiving, analyzing, and addressing employee complaints about 
occupational medical services. A more effective and robust program for 
dealing with employee concerns has the prospect of building employee 
and public confidence in worker safety at the Hanford Site.

                               CONCLUSION

    The Office of Inspector General has provided its findings and 
conclusions with respect to these three reviews to the Department for 
immediate action, as well as for consideration in its overall 
assessment regarding the serious issues that have been raised regarding 
worker safety and health at the Hanford Site.
    Mr. Chairman and members of the Committee, this concludes my 
statement. I will be pleased to answer any questions.

    The Chairman. Thank you very much.
    Mr. Podonsky.

 STATEMENT OF GLENN S. PODONSKY, DIRECTOR, OFFICE OF SECURITY 
               AND SAFETY PERFORMANCE ASSURANCE, 
         DEPARTMENT OF ENERGY, ACCOMPANIED BY PATRICIA 
 WORTHINGTON, PH.D., DIRECTOR, OFFICE OF ENVIRONMENT, SAFETY, 
           AND HEALTH OVERSIGHT, DEPARTMENT OF ENERGY

    Mr. Podonsky. Thank you very much, Mr. Chairman and members 
of the committee, for inviting me to testify today.
    Accompanying me today is Dr. Pat Worthington, my Director 
of Office of Environment, Safety, and Health Oversight and also 
the team leader on the recent independent oversight 
investigation at the Hanford site.
    The Secretary of Energy directed us to conduct this 
investigation, which focused on selected aspects of worker 
safety, with the emphasis on the tank farms and the potential 
for workers being exposed to hazardous vapors. We have issued 
an investigation report that presents the results of our 
investigation and I would like to request that my written 
statement, which presents the key results, be entered into the 
record.
    The Chairman. It will be.
    Mr. Podonsky. Thank you.
    In February the Secretary directed my Office of Independent 
Oversight to evaluate the safety-related allegations made by 
GAP, the Government Accountability Project, in their recent 
report and to evaluate the root causes of any identified 
deficiencies. The Secretary made it clear that we were to make 
this investigation our highest priority.
    We started the investigation immediately with a team of 23 
of our top experts from various disciplines, including 
occupational medicine and industrial hygiene.
    Concurrently, the Secretary tasked the Office of the 
Inspector General to evaluate the allegations from the 
perspective of potential violation of law, as we just heard.
    Our final report to the Secretary addresses three major 
areas: worker vapor exposures, occupational medicine programs, 
and injury and illness reporting. We found some positive 
aspects in each of these three areas, but we also identified a 
number of weaknesses that warrant increased management 
attention.
    In the review of worker vapor exposures, we concluded that 
there have been no known cases of workers being exposed to 
chemical vapors at the Hanford site tank farms in excess of 
regulatory limits, and available sampling data indicates that 
the worker exposures are low. However, we also concluded that 
Hanford's personnel sampling data is too limited to completely 
conclude that no worker has had any exposure that exceeded 
regulatory thresholds for any chemical to which workers might 
be exposed.
    We found some positive aspects in the ES&H programs, but 
determined that there were weaknesses in the tank farm 
industrial hygiene program, hazard analysis and controls, 
engineered controls, communications, contract feedback systems, 
and DOE oversight.
    The Office of River Protection and its contractor have 
taken appropriate interim actions, including the use of 
supplied air respirators, to mitigate worker risks and are 
evaluating longer term solutions.
    In reviewing the occupational medicine program, we 
concluded that the allegations that workers' medical records 
were falsified and that workers were given inappropriate 
medical treatment were not substantiated. We found that 
occupational medicine program keeps detailed patient records. 
Although we did not find any major problems in occupational 
medicine, we did identify areas where improvement is needed, 
specifically with interfaces between site contractors and 
oversight.
    In the area of injury and illness investigation and 
reporting, our review of sample reports from the tank far 
contractor and four other Hanford contractors showed that most 
injury and illness events were appropriately categorized. We 
found no egregious examples of misreporting. However, a 
fraction of the events were in the gray area of the regulation 
and decisions to treat them as non-recordable were questionable 
in a few cases. Despite some time lags and other data quality 
issues, the DOE Computerized Accident and Incident Reporting 
System we believe is providing valuable feedback on injury and 
illness trends and is useful as a management tool.
    The Secretary of Energy is directing the DOE Office of 
Environmental Management to develop and implement corrective 
actions to comprehensively and effectively address the findings 
and recommendations in our report. They are also being directed 
to coordinate with the State of Washington to ensure that the 
corrective action plan encompasses the State of Washington's 
Department of Ecology review, which covered some of the same 
areas and reached similar conclusions as ours. We will review 
the corrective action plans and continue to monitor the status.
    To summarize, the Office of Independent Oversight and 
Investigation identified some positive aspects, but a number of 
improvements are needed in all the areas we reviewed. We 
believe the interim measures currently in place mitigate the 
risks associated with the vapor exposures. Early indications 
are that the site, DOE and contractor organizations are taking 
timely and appropriate actions to address our findings and 
recommendations. Continued oversight both at the site level and 
by independent oversight will be needed to ensure that the 
actions are effective and provide a high level of worker 
protection expected by the Secretary.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Podonsky follows:]

 Prepared Statement of Glenn S. Podonsky, Director, Office of Security 
         and Safety Performance Assurance, Department of Energy

                          INTRODUCTORY REMARKS

    Mr. Chairman and honorable members of the committee, I want to 
thank you for inviting me to testify today at this hearing on 
accelerated cleanup of Department of Energy sites.
    My testimony will focus on the recent independent oversight 
investigation at the Hanford Site. As you are aware, the investigation 
was directed by the Secretary of Energy and focused on selected aspects 
of worker safety, with emphasis on the Tank Farms and the potential for 
workers being exposed to hazardous vapors.
    We have issued an investigation report that presents a detailed 
discussion of our investigation methods, findings, conclusions, and 
recommendations. This testimony will provide a brief overview of the 
results of that investigation report.

                        BACKGROUND ON SSA AND OA

    Before talking about the investigation, I would like to provide 
some background on organizational changes that have been directed by 
the Secretary in the past year, and that may be new to some of you. 
Secretary Abraham established the relatively new Office of Security and 
Safety Performance Assurance, known as SSA, in 2003. In my role as the 
Director of this Office, I report directly to the Secretary and Deputy 
Secretary. SSA assumes management responsibility for two previously 
existing staff organizations: the Office of Security, which is 
responsible for security policy and certain related functions, and the 
Office of Independent Oversight and Performance Assurance, or OA for 
short.
    OA independently evaluates the effectiveness of policy 
implementation in the areas of safeguards and security, cyber security, 
emergency management, and environment, safety and health. OA performed 
the recent investigation of worker safety at the Hanford Site in 
accordance with its standard protocols for performing inspections and 
special reviews of topics and issues in environment, safety, and 
health-or as we call it, ES&H. These protocols place a great deal of 
emphasis on ensuring that we have the right expertise to perform the 
review and that we validate the facts to ensure that we have a solid 
basis for our conclusions.

                    BACKGROUND ON THE INVESTIGATION

    In February 2004, the Secretary directed me to have OA conduct an 
investigation at the Hanford Site. We were tasked to evaluate the 
safety-related allegations made by GAP--the Government Accountability 
Project--in a report entitled Knowing Endangerment: Worker Exposure to 
Toxic Vapors at the Hanford Tank Farms, published in October 2003. 
Concurrently, the Secretary tasked the Office of the Inspector General 
to evaluate the allegations from the perspective of potential 
violations of law.
    Although OA was specifically tasked to look at the safety-related 
aspects of the GAP allegations, the Secretary gave us considerable 
latitude to examine the allegations in the broader context of the 
safety management systems at the Tank Farms. In a number of areas, we 
looked not only at the specific allegations but also at the 
effectiveness of the relevant ES&H programs and management systems. For 
example, we took a broad look at engineered controls and engineering 
design processes in addition to specific allegations documented by GAP 
about equipment problems. We also extended our review of injury and 
illness reporting practices by evaluating all Hanford Site prime 
contractors. We took a broader look so that we would be better 
positioned to evaluate the allegations and the root causes of any 
deficiencies.
    When directing the investigation, the Secretary made it clear that 
OA was to make the investigation its highest priority. OA started the 
investigation immediately and conducted an extensive evaluation of all 
safety-related GAP allegations on an accelerated schedule. The OA team 
conducted four site visits (two of which lasted two weeks each) from 
February to April 2004.
    For this investigation, OA assembled a team of 23 of our top 
experts from various disciplines, including occupational medicine, 
industrial hygiene, radiological protection, nuclear engineering, waste 
management, environmental protection, chemistry, maintenance, 
operations, and management systems. The OA team included individuals 
from other DOE sites, who had specialized expertise in industrial 
hygiene and Tank Farm operations. OA also designed and implemented a 
sampling strategy to independently collect vapor samples from a number 
of storage tanks, as well as selected workplaces and worker breathing 
zones, and to have them analyzed by a certified laboratory.
    We provided our final report to the Secretary on April 19, 2004, 
addressing three major areas: worker vapor exposures, occupational 
medicine programs, and injury and illness reporting. These three areas 
directly addressed the major allegations made by GAP. As the report 
documents, we found some positive aspects in each of these three areas, 
but we also identified a number of weaknesses that warrant increased 
management attention. I will very briefly go over some of the key 
results in the three areas.

                         WORKER VAPOR EXPOSURES

    In the review of worker vapor exposures, OA examined current and 
past worker safety practices to determine their effectiveness in 
preventing worker exposures to vapors and other hazardous materials 
that could cause illnesses. The review included engineered systems as 
well as the various administrative controls and processes by which Tank 
Farm workers may raise safety questions or concerns.
    Before I outline our conclusions, it is important to recognize that 
worker vapor exposures are not a new issue at the Hanford Site Tank 
Farms. The DOE Office of River Protection and the Tank Farm contractor, 
and their predecessors, have developed a number of initiatives over the 
past 20 years to address vapor exposure issues. In the past two years, 
these organizations have taken a number of actions to better understand 
and prevent vapor exposure events. For example, they established a 
major program to evaluate and develop better administrative and 
engineered controls. In reviewing these initiatives, OA found that some 
were appropriate but were not sufficiently comprehensive, and were in 
various stages of development and implementation.
    We concluded, first of all, that there have been no known cases of 
workers being exposed to chemical vapors at the Hanford Site Tank Farm 
in excess of regulatory limits, and available sampling data indicates 
that worker exposures are low. However, we also concluded that 
Hanford's personal sampling data is too limited to conclude that no 
worker has had any exposure that exceeded regulatory thresholds for any 
chemical to which workers might be exposed.
    As our report describes in detail, we found some positive aspects 
in the ES&H programs. For example, the Office of River Protection and 
its contractor had chartered a number of industrial hygiene reviews 
and, as a result, had increased the use of respiratory protection. We 
also saw cases where these organizations had used engineered controls 
in an attempt to mitigate vapor releases at tanks that were known to 
cause problems. However, we concluded that the Tank Farm industrial 
hygiene program has vulnerabilities that reduced its effectiveness and 
need to be corrected to ensure that workers are not overexposed to Tank 
Farm chemical vapors.
    We also determined that weaknesses in hazard analysis and controls, 
engineered controls, communications, contractor feedback systems, and 
DOE oversight contributed to or exacerbated the weaknesses in the 
industrial hygiene program. Hazard analysis processes are not 
sufficiently rigorous in some cases. Increased attention is needed in 
the area of engineering design and support. For example, some tanks did 
not have pressure release valves as specified by design codes. In some 
cases, ORP and its contractor are conducting good assessments and self-
identifying deficiencies; however, the corrective action management 
processes also need to be more rigorous to ensure that self-identified 
deficiencies and their root causes are corrected.
    Clearly, these weaknesses need continued and increased attention to 
develop comprehensive, long-term solutions. At the time we completed 
our investigation and in subsequent contacts, we believe that the 
Office of River Protection and its contractor are taking appropriate 
actions to evaluate additional engineered controls, such as evaluating 
engineered dilution (e.g., stacks) and abatement (e.g., scrubbers) 
systems, and to enhance the industrial hygiene program, including 
better characterizing the tank head spaces and better monitoring of 
workspaces and personal breathing zones. It is also important to 
recognize that these organizations took the significant step of 
requiring additional respirator protection, including supplied air 
respirators, for much of the work at the tank farms, while longer-term 
solutions are evaluated. These conservative interim measures are 
appropriate to enhance improve worker safety, while longer-term 
solutions are evaluated.
    In addition to the findings--there were 18 formal findings across 
the three areas investigated--the OA report provided a number of 
recommendations for improving the systems that protect workers from 
vapor exposures. These recommendations cover a broad range, from 
specific technical issues, such as the need to install dilution systems 
on certain tanks or equipment, to broad recommendations for improving 
management oversight. The Secretary has directed that line management--
from DOE Headquarters to the Office of River Protection to the site 
contractor--evaluate the OA findings and recommendations and ensure 
that comprehensive and effective actions are taken. Based on our more 
recent contacts with site personnel, it appears that the site is 
already implementing a number of appropriate actions and plans to do 
more.

                     OCCUPATIONAL MEDICINE PROGRAM

    In reviewing the occupational medicine program, OA examined current 
and past occupational medicine program practices, focusing on aspects 
relevant to the recent GAP allegations. OA reviewed the medical 
treatment of Tank Farm workers, focusing on those with vapor exposures, 
and also examined occupational medicine program issues for site-wide 
applicability.
    The GAP allegations that workers' medical records were falsified 
and that workers were given inappropriate medical treatment were not 
substantiated by our review. We found that the occupational medicine 
program keeps detailed patient records, and all changes and corrections 
in the records are fully documented and explained. OA found no 
instances where medical treatment was lacking or inappropriate. In 
fact, we determined that medical records were detailed and well 
organized, and are controlled by strict record-keeping practices. 
Laboratory and other medical tests, a part of the vapor exposure exam 
protocol, were accomplished (unless declined by the employee). The OA 
team found the clinical practices and protocols to be consistent with 
standard occupational medical practices.
    Although we did not find any major problems in occupational 
medicine, we did identify areas where improvement is warranted. For 
example, in a few cases, the records of workers' visits did not give 
the employers enough information about workers' medications to ensure 
that the employers could correctly determine whether that information 
should be reported to the Occupational Safety and Health Administration 
(OSHA).
    In addition, stronger interfaces and communication between the 
medical program contractor and site operating contractors would help 
ensure that relevant information is exchanged. The Richland Operations 
Office has not established the necessary interfaces between prime 
contractors and the occupational medicine program to address the 
integration of occupational medicine program services as required by 
DOE occupational medicine directives and contractor requirements. 
Weaknesses were found in some administrative Hanford Environmental 
Health Foundation (HEHF) protocols. For example, communications to 
professional staff were not always effective and contributed to 
misunderstandings and conflict among staff. Protocols also did not 
address the proper completion of records of visits to assure that case 
managers were provided accurate information for properly categorizing 
work-related incidents. Richland Operations Office oversight of the 
occupational medical program has been limited, and needs to be more 
rigorous as the site transitions to a new occupational medical service 
contractor.

Injury and Illness Reporting (Sitewide)
    In the area of injury and illness investigation and reporting, OA 
evaluated the adequacy of the injury and illness policies and processes 
for the tank farm contractor and the other Hanford Site prime 
contractors. OA reviewed documentation related to injuries and 
illnesses to determine whether contractor policies and procedures have 
been properly implemented and whether DOE and OSHA requirements have 
been met. Selected workers involved in Tank Farm exposure incidents 
were interviewed to determine the effectiveness of illness and injury 
reporting.
    OA's review of a sample of reports from the tank farm contractor 
and four other Hanford contractors showed that most injury and illness 
events were appropriately categorized. We found no egregious examples 
of misreporting. However, a fraction of the events were in gray areas 
of the regulation, and decisions to treat them as non-recordable were 
questionable in a few cases. In addition, there continue to be 
discrepancies between reported events (OSHA 300 logs) and the DOE 

Computerized
    Accident/Incident Reporting System (or CAIRS for short) which is 
used to report performance metric data to senior DOE management. These 
discrepancies occur primarily because of data entry time lags and 
record keeping errors. Based on the OA investigation and other recent 
oversight activities, we believe that despite some time lags and other 
data quality issues, CAIRS is providing valuable feedback on injury and 
illness trends and is a useful management tool. Further, the 
appropriate DOE Headquarters organizations are taking appropriate 
actions to improve injury and illness reporting across Environmental 
Management sites, including actions to improve the timeliness of CAIRS 
data.

Planned Actions
    Before closing, I will take a minute to summarize the ongoing and 
planned actions. The Secretary of Energy has directed the DOE Office of 
Environmental Management to work with the DOE Richland Operations 
Office and the Office of River Protection and their respective 
contractors to develop and implement corrective action plans to 
comprehensively and effectively address the findings in the OA report. 
EM has also been directed to coordinate with the State of Washington to 
ensure that the corrective action plan encompasses the State of 
Washington Department of Ecology review, which covered some of the same 
areas as OA and reached similar conclusions, as well as the OA and IG 
reviews. The Secretary also directed the Office of Environment, Safety 
and Health to continue ongoing actions to ensure that CAIRS data is 
accurate and timely. Hanford Site line management is required to 
develop formal corrective action plans for the 18 findings identified 
in the OA report. OA will comment on the corrective actions plans as 
appropriate and monitor the status as part of its independent oversight 
role. In fact, the OA investigation team leader has had several 
contacts with site personnel since the investigation was completed and 
has been informed about the status of the ongoing and planned actions.

                            CLOSING REMARKS

    To summarize, the OA investigation identified some positive 
aspects. There are no known cases of exposures in excess of regulatory 
limits and the medical program provides quality health care. However, 
improvements are needed in all of the areas reviewed. The most 
significant concerns relate to the potential for vapor exposures to 
Tank Farm workers. The interim measures currently in place mitigate the 
immediate risk, but increased management attention is needed to ensure 
that long-term solutions are implemented and verified to be effective. 
Improvements are also needed in various aspects of management systems 
for DOE organizations and contractors at the Hanford Site, including 
corrective action management, engineering support, communications, and 
line management oversight. Early indications are that the site DOE and 
contractor organizations are taking timely and appropriate actions to 
address the findings and recommendations in the OA report. Continued 
oversight both at the site level and by OA will be needed to ensure 
that the actions are effective and provide the high level of worker 
protection expected by the Secretary.
    Thank you. This concludes my prepared testimony.

    The Chairman. Thank you very much.
    Senator Smith, thank you for joining us. Did you want to 
make some remarks? Everybody had a couple.

         STATEMENT OF HON. GORDON SMITH, U.S. SENATOR 
                          FROM OREGON

    Senator Smith. Thank you. In the interest of time, Mr. 
Chairman, I will put my statement in the record and thank you 
for responding to the letter that Senator Cantwell and I sent 
requesting this hearing. It is very important.
    [The prepared statement of Senator Smith follows:]

         Prepared Statement of Hon. Gordon Smith, U.S. Senator 
                              From Oregon

    Mr. Chairman, I appreciate your willingness to convene this 
important oversight hearing to receive testimony regarding the 
Department of Energy's Environmental Management Program and issues 
related to the accelerated cleanup of the Hanford, Idaho and Savannah 
River sites.
    In February, I joined with my colleague, Senator Cantwell, in 
requesting this oversight hearing. At the time, there were ongoing 
reports that concerns over worker safety at the Hanford Site were not 
being taken seriously in the push to speed the cleanup.
    Regionally, for the millions of Northwesterners who find themselves 
in either in the immediate vicinity--or downstream--of the Hanford 
site, the accelerated clean-up schedule and the handling and shipment 
of additional transuranic waste to Hanford are issues of the utmost 
importance.
    Cleaning up nuclear waste must never be about cutting corners to 
save money. It must always be about eliminating the environmental 
hazards created by defense nuclear production, and worsened at Hanford 
by leaking storage tanks. The United States has an obligation to 
protect the Columbia River and the people of the Pacific Northwest. I 
will never settle for short-cuts and pinching pennies in the clean-up 
of the Hanford Site.
    The Hanford Site is a 586-square-mile area located along the 
Columbia River in southeastern Washington State. For almost 40 years, 
it was a production site for nuclear materials for our nation's 
defense.
    Now it is the world's largest environmental cleanup project, and 
the challenges are numerous. They include more than 50 million gallons 
of high level liquid waste in 177 underground storage tanks, 2,300 tons 
of spent nuclear fuel, 12 tons of plutonium in various forms, and 500 
contaminated facilities.
    Of vital concern to Oregon, there are about 270 billion gallons of 
contaminated groundwater, spread out over about 80 square miles, that 
is leaching ever closer to the Columbia River.
    Oregonians and Washingtonians want this site cleaned up, and the 
waste transported to a long-term repository. A glass vitrification 
plant to process tank waste is currently under construction. Initially, 
all of the tank waste was supposed to be vitrified. However, in May 
2002, the Department of Energy announced that it planned to study 
multiple ``supplemental technologies'' that might be used to treat as 
much as two-thirds of the underground tank waste.
    In December 2003, without any advance notice or opportunity for 
input, the Department selected a single technology that could be used 
to treat as much as 34 million gallons of tank waste. I have joined 
with other Northwest Members to ask that the Appropriations Committee 
compel the Department of Energy to fully fund at least two detailed 
scientific studies into supplemental technologies at Hanford.
    We have also asked that the Department prepare a report on worker 
safety allegations and the steps taken to address any potential 
problems. I know that CH2M HILL has undertaken a number of actions to 
improve worker safety at the Hanford site, particularly for those 
workers operating near the tank farms, and they are to be commended for 
undertaking these measures.
    I have also reviewed the memorandum from Gregory Friedman, the 
Inspector General for the Department of Energy, to the Secretary 
summarizing the findings of the Inspector General's investigation into 
allegations involving occupational medical services and tank farm vapor 
exposures at Hanford.
    In his conclusion, Mr. Friedman made the following insightful 
remarks: ``Given the challenges at Hanford, where the acknowledged 
risks to the workforce are significant, some level of concern would be 
understandable even if the Department's occupational health program 
worked perfectly. However, the number, scope, and continued nature of 
the employee and citizen concerns we heard during our investigation 
suggest that management needs to intensify its efforts to improve 
employee confidence in the occupational health and safety program at 
Hanford.''
    Mr. Chairman, I am confident that this Committee, under your 
leadership, will remain diligent in its oversight role to ensure that 
these worker safety efforts are indeed intensified, and that 
accelerated clean-up of these sights doesn't shortchange the workers, 
or future generations.

    The Chairman. You are welcome.
    I think we are going to have time to let you two Senators 
get your points out. I will nonetheless take a few minutes, I 
assume Senator Bingaman will, and then we will move as quickly 
as we can.
    I guess I would like to try in my own way to simplify this. 
I do not know if I can. Mr. Friedman, in your capacity with the 
Department would you quickly describe what your mission is? 
What were you charged to do in this investigation?
    Mr. Friedman. In this particular investigation? Actually, 
Mr. Chairman, the direction, the directive from the Secretary--
I described three particular, three individual efforts on our 
part. The specific with regard to the criminal investigation, 
the Secretary broadly charged both Mr. Podonsky and me to look 
at issues relating to the allegations at Hanford. I decided 
that it made sense not to have too many duplicative, repetitive 
investigations, reviews, ongoing at one time and that I would 
carve out the piece that we were I think uniquely charged with, 
which is the criminal aspects, whether there was any criminal 
conduct. So that was the charge as I saw it.
    The Chairman. Now, is that, is the addressing and 
investigation of that issue normal and the kind that you would 
do in your capacity as we described it heretofore?
    Mr. Friedman. It is.
    The Chairman. Now, can I summarize it by saying, with 
reference to that question which you were charged to address, 
to wit criminal activities with reference to the Hanford 
project, that you found no evidence of criminal activity?
    Mr. Friedman. That is correct, and we, as I indicated, we 
closely worked with the United States Attorney's Office and 
ultimately provided them with a detailed briefing at the end of 
our investigation, and they found no reason to take further 
action.
    The Chairman. Mr. Podonsky, what is your mission with 
reference to the allegations which will be talked about later 
by others? What were you charged with and was it within the 
purview of your responsibility?
    Mr. Podonsky. Mr. Chairman, first, to answer that question 
I would appreciate if the committee would indulge me to let me 
give a little background of what my office does for the 
Department.
    The Chairman. Please.
    Mr. Podonsky. It is rather unique to the executive branch. 
We do not do waste, fraud, or abuse investigations. That is 
clearly within the purview of the Inspector General's Office. 
We do oversight of the Department of Energy for environment, 
safety, health, safeguards, security, cyber security, emergency 
management. The purpose is to report back to the management of 
the Department on how well they are performing within not just 
compliance with DOE requirements, but also how well they are 
performing because we understand oftentimes you can be in total 
compliance and have terrible performance.
    So in all the disciplines I just mentioned, we oversee all 
the activities for both NNSA, advise the Administrator as well 
as the Secretary for the ESE activities.
    Dr. Worthington is my Office Director for the Oversight of 
Environment, Safety, and Health. The Secretary charged us in 
February to go out to Hanford to investigate the allegations 
contained in the GAP report, and those allegations we 
characterize into worker safety in terms of occupational 
medicine, in terms of the vapor exposures, as well as the CAIRS 
reporting system. That is totally within the charter and what 
Congress funds us to do.
    The Chairman. Now, you did that and are you telling this 
committee--I think you have, but let us ask you again--that I 
reviewing this you found no situation where the Department had 
violated the rules that you were charged with interpreting on 
the site with reference to either violating or complying with 
them?
    Mr. Podonsky. I would not describe it as not violating any 
of the rules. I would describe it that we saw issues that were 
contained in the GAP report that required further actions by 
the Office of Environmental Management and the site office to 
correct. We did not find any egregious connection to some of 
the allegations in the GAP report. So it is not quite no 
violations, it is not quite not being in compliance; it is more 
about not necessarily performing at the level that we would 
like them to perform at in all areas.
    However, we did note, as I made in my statement as well as 
my written statement, they are moving toward improving on most 
of these areas.
    The Chairman. Now, Ms. Roberson, you are the head of all 
this and you have heard the testimony and I assume that your 
office has been the subject matter of these investigations. 
Will you tell the committee: one, did you participate and 
accommodate Mr. Friedman and Mr. Podonsky as they attempted to 
do their work?
    Ms. Roberson. Mr. Chairman, I think that they would both 
say that we openly and honestly and quite committedly did 
participate and support their reviews and investigations. 
Further, we have either implemented or are in the process of 
implementing corrective actions. I would also say in some areas 
we had actually initiated corrective actions based upon reviews 
that we, the program, had initiated before these investigations 
or reviews.
    The Chairman. Now, all three of you, if it is not your job 
just say so; but if it is, answer the question. Mr. Friedman, 
Ms. Roberson, Mr. Podonsky: In your capacity on the job and the 
rules that you interpret and govern, was anything done on this 
project that was, in your opinion, in violation of the rules 
and responsibilities that are imposed upon Jessie Roberson as 
she attempted to comply and do this job?
    Did you get the question?
    Mr. Friedman. I am not sure, Mr. Chairman. Could you give 
me a shot at that again?
    The Chairman. Would you repeat it?
    The Reporter. ``In your capacity on the job and the rules 
that you interpret and govern, was anything done on this 
project that was, in your opinion, in violation of the rules 
and responsibilities that are imposed upon Jessie Roberson as 
she attempted to comply and do this job?''
    Mr. Friedman. I do not want to personalize it to Jessie 
Roberson. Certainly she is the head of the environmental 
program from a personal responsibility. From a purely criminal 
aspect, we did not find any corroboration for the allegations. 
We did identify three or four management issues, which were not 
the primary focus of our investigation, which was a criminal 
investigation, which were included in our report and which are 
things that we believe the Department needs to address.
    The Chairman. Mr. Podonsky.
    Mr. Podonsky. You do not need to repeat the question. We do 
not believe that there was any violations. What we are about is 
evaluating the performance of the management in the application 
to worker safety, and what we saw was initiatives under way, as 
Ms. Roberson just mentioned. But we also, being critics of the 
Department internal, we found that there were areas to be 
improved.
    Ms. Roberson. May I answer that, Mr. Chairman?
    The Chairman. Yes, ma'am.
    Ms. Roberson. I can assure you Jessie Roberson did not 
violate any of the rules that were being imposed on her by the 
Department.
    The Chairman. Thank you.
    Senator Bingaman.
    Senator Bingaman. Thank you, Mr. Chairman.
    Let me ask Ms. Roberson first on this issue about the 
change in law that the Department has advocated and I gather 
the Senate is now adopting as part of the defense bill, to 
essentially permit DOE to agree with States for the leaving of 
certain amounts of what was previously thought to be high-level 
waste in those States. You stated, as I understood it, in your 
testimony if the NRC standards--you indicated the NRC standards 
are in all cases being met?
    Ms. Roberson. The performance requirements for leaving 
waste, we have to meet the performance requirements for low-
level wastes, the NRC requirements.
    Senator Bingaman. For low-level waste you are saying?
    Ms. Roberson. That is exactly right. To dispose of waste as 
low-level waste, we must meet those performance requirements.
    Senator Bingaman. My understanding is the language we have 
been presented with and that the Senate has adopted calls for 
the NRC to have a rule on the issue of ensuring that high-level 
radioactive radionuclides have been removed to the maximum 
extent practicable or that criteria be provided by the Nuclear 
Regulatory Commission. The problem that I had and I think some 
other Senators may have had with the language the Senate is 
evidently adopting now is that you have got the Department of 
Energy making the determination as to whether or not the NRC 
criteria has been complied with. You have got the Department of 
Energy making the determination as to whether the removal has 
been done to the maximum extent practicable, rather than the 
NRC.
    Why shouldn't the NRC be making the determination that its 
criteria have been met?
    Ms. Roberson. Well, I have to say I am not--I do not really 
fully understand the language as it resulted from the Senate 
actions yesterday. To my understanding there was some change in 
that language. What the Department from the very beginning, 
almost a year ago when I testified in front of the House, the 
House subcommittee on this topic, subcommittee for oversight on 
this topic--the Department in all of its tank activities and 
its closures has collaborated with the NRC.
    The first two tanks we closed at Savannah River, even 
before putting in place our DOE Order 435.1, we also 
collaborated with the NRC.
    Senator Bingaman. I think collaboration is a good idea, but 
why doesn't the NRC have the ultimate responsibility in the 
case of these tanks for determining whether or not their 
criteria have been met?
    Ms. Roberson. Well, the NRC has held the position, and it 
has been validated by court ruling, that the NRC did not have 
regulatory authority over DOE in this area.
    Senator Bingaman. But if we are going to change the law to 
loosen the requirements essentially for the handling of this 
high-level waste, why do we not provide that the NRC step in 
and make a determination that its criteria has been met?
    Ms. Roberson. Senator Bingaman, I would say I do not 
believe we are loosening the law. The Department does believe 
it has been complying with the law. And if the Congress's 
determination is that NRC will have that role, a greater role, 
then the Department obviously is going to comply with that.
    Senator Bingaman. But you do not believe they should have 
that role?
    Ms. Roberson. I do not believe it is essential. We have 
worked extremely closely with the NRC. For the last decade the 
Department has, even before I was here, has paralleled their 
process. The NRC, as you well know, has endorsed the process 
that we are using. I do not believe it is necessary, but that 
certainly is a choice of the Congress.
    Senator Bingaman. Well, let me just say for the record that 
I would feel much more comfortable if the NRC actually had to 
make the determination that its own criteria had been met, 
rather than leaving that up to the Department of Energy.
    Let me move to another issue. In the fiscal year 2005 
budget submission, your office proposed creating an Office of 
Future Liabilities to handle facility decommissioning and other 
environmental liabilities that are not assigned to your office. 
You also state in there that the needs in this area are 
expected to grow substantially. Can you be more precise about 
what these needs are? What are the things that your office is 
not going to be responsible for and that we need to establish a 
separate Office of Future Liabilities for and how substantial 
is the growth in those as you see it?
    Ms. Roberson. The Department's plan, proposal, for 
establishing the Office of Future Liabilities really was a 
sunset office. You have the Environmental Management program 
which is working very hard to address the issues that are 
within its purview right now. There are more than 100 
facilities that are still in operation today for other 
programs--the Office of Science, the NNSA. Eventually those 
facilities will move into a state of environmental cleanup, 
where they are now in operation.
    The intent of the Office of Future Liabilities is to have 
an independent office that could work full-time for about a 
year, which is what we expect it will take, really a small 
group of people about that long, to work with all of the 
organizations in DOE to put together a time release schedule of 
when those areas would be available or would be free or would 
be turned over for environmental remediation.
    In looking at that, that required fairly intense 
collaboration with NNSA, with the Office of Science, with 
Nuclear Energy, and in fact with Environmental Management. The 
Department believed it made sense to establish a specific 
organizational element to put together that information and to 
propose to the Secretary of Energy how to most efficiently and 
effectively manage and plan for that work organizationally as 
it became due. That is the purpose of the Office of Future 
Liabilities.
    Senator Bingaman. Mr. Chairman, I still, I remain very 
confused about how you sort of those types of responsibilities 
from the ongoing and existing responsibilities of your office. 
But obviously my time has expired, so I will wait and perhaps 
ask some more questions next time.
    Ms. Roberson. If I might respond to that for Senator 
Bingaman, the decision to not have Environmental Management do 
that work was always an option. It was never eliminated. The 
goal was to simply not tie up the resources of the 
Environmental Management Program doing the physical cleanup in 
doing the planning for the next generation of facilities that 
need to be remediated. That really is the difference.
    Senator Bingaman. Thank you, Mr. Chairman. I will wait for 
another round.
    The Chairman. Senator Bingaman, I am not sure in your 
statement what is going to happen to the bill on the floor. 
What happened in the approach to have the NRC do this was they 
left the issue to the Appropriations Committee, Energy and 
Water, to provide for a study to be done by the National 
Academy of Science. That is the agreement made by the various 
people.
    Probably the way it will come out will be that the Energy 
and Water Subcommittee will do the Nuclear Regulatory 
Commission and the NAS will not be provided for.
    Senator Bingaman. Yes. Clearly, I agree that there is a 
plan for having the study. My understanding is that it is an 
after the fact study. The basic language, though, that was 
included in Senator Crapo's amendment--I believe it is Crapo's 
amendment--calls upon the Secretary of Energy to clean up these 
tanks to the maximum extent possible, in accordance with the 
rules issued by the Nuclear Regulatory Commission.
    My question was why shouldn't the Nuclear Regulatory 
Commission be deciding whether or not its own rules have been 
adequately complied with? It seems to me I would feel much more 
comfortable if the Nuclear Regulatory Commission with its 
expertise were saying, yes, you complied with my rules. That 
was the difference of opinion that we had. I just wanted to 
clarify that.
    The Chairman. It was a very big group of Senators. I cannot 
tell you right now what happened, but what they expected to 
happen did not happen. So I do not know what that means. But 
when my staff arrived at that meeting everything got changed, 
because the question was asked, where is Senator Domenici, and 
I was not aware of what they were doing. So the meeting did not 
proceed to finality, I know that much.
    Senator.
    Senator Wyden. Mr. Chairman, I was just hoping to get a 
couple of questions in.
    The Chairman. You are next.

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Would the gentleman yield for just a 
clarification of the Crapo-Craig-Graham amendment? I do not 
want it misportrayed here. Consultation versus concurrence is 
the difference. Pre-amendment, consultation; post-amendment, 
concurrence. That puts the Nuclear Regulatory Commission in a 
much stronger position, and I think it is important that that 
is understood in the relationship with the cleanup process that 
Jessie is in charge of.
    The Chairman. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Ms. Roberson, the Federal Government signed an agreement in 
1989 to clean up 99 percent of the wastes in the tanks. In 
April we learn that the Department is now looking at cleaning 
up 90 percent of the waste in the tanks. Could you give us an 
analysis of what is the minimum amount of radioactivity left in 
the tanks if it is 90 percent? I have received some very high 
figures from activist groups, dangerously high figures. But I 
would like your analysis of the minimum amount of radioactivity 
left in that bottom 10 percent of the waste in the tanks.
    Ms. Roberson. Senator Wyden, I honestly cannot give you 
estimates for 10 percent because our working plan is reflected 
in our commitment in the TPA to meet 1 percent, and that is 
what we are working on. So 1 percent or less is what our 
working plan incorporates.
    Senator Wyden. If you are giving us some good news here, I 
want to make it clear what it entails. But Senator Cantwell and 
I have both been bearing down on this Department proposal that 
you all are looking at going to an approach that does not clean 
up 99 percent but cleans up 90 percent. Are you telling us that 
90 percent is off the table this morning? I would like a yes or 
no answer to that question: Is it off the table to go to 90 
percent rather than 99?
    Ms. Roberson. Let me tell you unequivocally, it is off the 
table. It is our intent to comply with our TPA. Now, let me 
also say that in the conduct of our single-shell tank closure 
EIS and obviously of the ongoing discussions, which are not 
decisions, they are discussions, we will continue to evaluate 
alternatives. We are required by law to do that.
    That does not mean they are decisions. Unless the Tri-Party 
Agreement reflects something different, then 99 percent is what 
we are living by. Ninety-nine percent or more is what we 
removed from Tank C106 and that is our plan for the other 
tanks.
    Senator Wyden. It sure sounds to me like you put it back on 
the table. I would like to ask you again. The people in the 
Northwest want to know this. Is there any chance that you are 
going to go to 90 percent rather than 99 percent of cleanup? 
Just a yes or no answer: Is there a chance that you are going 
to go to 90 percent?
    Ms. Roberson. I do not see that, any chance that we are 
going to go to 90 percent. We built our facilities and our 
program----
    Senator Wyden. Why don't you stop there.
    Ms. Roberson. Well, I will keep going--but I will stop.
    Senator Wyden. That is an encouraging, encouraging answer. 
Would you put that in writing to Senator Cantwell, myself, 
Senator Murray, and Senator Smith? Our constituents want to 
know that. We want to know that there is no chance that you are 
going to reduce the amount of cleanup that our constituents are 
counting on and I would like that in writing. Can you furnish 
that to us?
    The Chairman. You can take the record. It is available. You 
can get the record. She just said it.
    Ms. Roberson. I will be glad to provide you augmentation to 
the record, but it is clearly in the record.
    [The material referred to follows:]
                                      Department of Energy,
                                     Washington, DC, July 13, 2004.
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman: The purpose of this letter is to provide follow-
up to the testimony I provided to the Senate Energy and Natural 
Resources Committee on June 17, 2004. The Department of Energy remains 
committed to fulfilling its obligations contained in the Tri-Party 
Agreement, including those that relate to the amount of residues that 
will remain in the single-shell tanks at Hanford on their closure 
milestone date. That amount is described as a volume of the tank waste 
present when the Tri-Party Agreement was executed in 1989. The Tri-
Party Agreement also specifies a process whereby the parties can adjust 
the 99% goal in light of their experience in retrieving the contents of 
particular tanks.
    The Department has proceeded successfully under these Tri-Party 
Agreement provisions since their adoption and has no intention to 
depart from the 99% goal as it is specified in the Agreement. Cleanup 
of the Hanford Site is a top priority of the cleanup program.
    If you have any further questions, please call me at (202) 586-7709 
or Ms. Jill Sigal, Principal Deputy Assistant Secretary, Office of 
Congressional and Intergovernmental Affairs, at (202) 586-5450.
            Sincerely,
                                      Jessie Hill Roberson,
                  Assistant Secretary for Environmental Management.

    Senator Wyden. You are being very constructive this 
morning.
    Mr. Chairman, I thank you. I have only one other question 
right now.
    With respect to the accelerated cleanup, Ms. Roberson, and 
the concept of saving taxpayers' money, are you going to try to 
recoup the millions of dollars paid to the Hanford contractors 
to improve worker safety programs that the Department's Office 
of Independent Oversight found to be flawed? It would seem to 
me that when you paid contractors for what your own people have 
found were flaws in some of the work that they were doing, that 
one way to save the taxpayers some money would be to try to 
recoup that money paid for flawed work from the contractors. 
Are you looking at doing that?
    Ms. Roberson. I actually believe we have withheld funds 
from the contractor, from our tank farm contractor, in the last 
year.
    Senator Wyden. Are you going to try to recoup additional 
amounts?
    Ms. Roberson. We may. We continue to follow our contract 
and we pursue those options aggressively when we think they are 
warranted and we leave open the option to do it again. We have 
done it and we will do it again.
    Senator Wyden, can I add one more thing to your first 
question? Also, the concern or rhetoric about the 10 percent--
one of the other options in the single-shell tank closure EIS 
that has been evaluated is the no-action alternative, which we 
are required by law to evaluate. That is clearly not an 
alternative we are implementing, either.
    Senator Wyden. Well, I think you have been constructive 
this morning, Ms. Roberson, and we have obviously had 
differences of opinion over the years, but you have always been 
responsive. The reason I am asking for this in writing is that 
we do keep coming back to it, and I would like to have in 
writing, please, as you call it, augmentation for what has been 
said today, because my constituents want to know that it is off 
the table with respect to reducing the amount of waste that 
would be cleaned up. I thank you for your cooperation.
    Thank you, Mr. Chairman.
    The Chairman. Senator, you are next.
    Senator Cantwell. Thank you, Mr. Chairman, and again thank 
you for holding this hearing. I appreciate my colleagues 
support in having this hearing.
    Mr. Chairman, are you planning on having two rounds? I have 
a lot of questions.
    The Chairman. Get what you can in one, then we will see.
    Senator Cantwell. Okay. Then I might ask that the answers 
to the questions be succinct, if we could. Secretary Roberson, 
I know when you are in charge of an organization you want 
things to be seen in a positive light and you want to shine on 
those accomplishments. But I find it ironic that three of the 
four most important people to the Northwest as it relates to 
Hanford and cleanup, Under Secretary Card and Assistant 
Secretary Cook and yourself, all head various parts of the 
environmental cleanup and health and safety, are all resigning. 
Part of that has been, I think, the scrutiny of this 
committee's last hearing about the outrage about the lack of 
progress that had been made on processing information about 
health and safety standards for employees. Now all of a sudden 
we find Under Secretary Card is resigning.
    So maybe it is just a weird coincidence, but for the people 
in the Northwest, who have provided great scrutiny, oversight 
and criticism of the organization, we find it ironic that 
everybody is resigning and now we are told everything is great. 
Well, I think we have two witnesses here who are saying that 
things--well, we have a few issues that we need to deal with.
    I think, Mr. Friedman, is not your main point about the 
health and safety issues that documentation was not kept and 
that we do not have all the information that we need to make 
sure that the health and safety of workers are properly being 
taken care of?
    Mr. Friedman. Well, in certain issues, Senator Cantwell, 
there were conflicting testimony provided to us and we could 
not find documentation to confirm one position or the other, 
and we sought that documentation, that is correct. However, we 
essentially did not--we were not able to corroborate the 
allegations of criminal misconduct.
    Senator Cantwell. I am not asking about criminal conduct. I 
am talking about records. I mean, part of our entire debate 
about getting compensation for employees for past issues, not 
the current vapor exposure, is that nobody keeps any records. 
That is why we are passing legislation on the floor as part of 
the defense authorization bill to make sure that we get these 
site provisions done so that you have better records and 
information.
    But is that not the primary issue that you uncovered in 
your report, that not enough record and documentation exists?
    Mr. Friedman. That was not part of our report.
    Senator Cantwell. Okay.
    Mr. Podonsky, is it not--I will have to get back to you, 
Mr. Friedman, on that question.
    Mr. Podonsky, did it not take a report from a whistleblower 
group to get these problems actually under investigation?
    Mr. Podonsky. Senator, actually my office that Dr. 
Worthington heads up, we do scheduled inspections and when the 
report that came out from GAP came out in September we actually 
responded to GAP in October and informed GAP that we shared 
concerns about worker protection and that we were going to do 
our normally scheduled inspection at Hanford in the fall.
    That timetable was accelerated by the Secretary's desire to 
have us out there right away once the correspondence had come 
in. So on the one hand, yes, it served as a catalyst; on the 
other hand, we have the regular scheduled inspection priorities 
that we go through all the sites. So it is a combination.
    Senator Cantwell. So the whistleblowers helped bring 
attention to these issues. Your report said, quote, ``While 
many individual weaknesses need to be addressed, the 
overarching weakness is that the overall strategy for 
protecting workers from vapors is not adequately defined and 
documented at a level that can be translated into an adequate 
set of engineering controls, administrative controls, and 
personnel protective equipment.'' That was your key 
recommendation?
    Mr. Podonsky. That is what the report said.
    Senator Cantwell. So why did the DOE fail to catch these 
problems through its own system oversight? Why did it take you 
coming out there to catch that and document that for them?
    Mr. Podonsky. Let me ask Dr. Worthington to follow part of 
my answer to that. In our oversight capacity, we have gone 
across the complex looking at all matters, and it is very easy 
for us oftentimes to look at an operation and find issues and 
problems. Most of the time we find that so much work is being 
done at these sites that the individual oversight and self-
assessments are not as rigorous as we are because that is all 
we do.
    Let me ask Dr. Worthington to continue.
    Dr. Worthington. I would like to comment a little bit about 
some ongoing initiatives when we arrived at the site. There 
were a number of external reviews that had been commissioned by 
DOE or by the local contractor there that were already under 
way. Some of the things clearly in various places in the report 
where it was appropriate we tried to point out, some of these 
things had already been identified by the contractor or by DOE, 
and some of them they had already initiated some actions.
    Our review certainly looked across many aspects of the 
program and provided a comprehensive look at the various 
pieces. But there were some individual components that the site 
and DOE had initiated and had taken some corrective actions.
    Senator Cantwell. But your document says the overarching 
weakness was that there was no strategy for protecting and 
defining the documentation. So you are saying you might have 
had some individual instances, but no one in the agency had 
seen the extent of the problem from a documentation 
perspective?
    Dr. Worthington. Certainly there were a number of various 
activities going on, but with respect to a comprehensive 
documented strategy, we had a lot of discussion and I believe 
at the end of the review certainly we were getting consensus 
the need to move forward for a more comprehensive look at what 
was needed at the tank farm.
    Senator Cantwell. Thank you.
    Mr. Chairman, I see the red light is going on and we may 
have a second line, but if I could just ask again for a yes or 
no. I do not need anything else, just a yes or no answer from 
Secretary Roberson. If we get to a second round I am happy to 
hear more and have more dialog.
    Secretary Roberson, the Department of Energy today, yes or 
no, will pursue, live with, and agree to cleaning up all but 1 
percent of the waste in tanks at Hanford?
    Ms. Roberson. That is our commitment, yes.
    Senator Cantwell. Thank you.
    Ms. Roberson. I would ask the chairman--I mean, even though 
it is not a question, I really do, since it is unlikely I will 
have the opportunity in the future, I would like to respond to 
two other comments from the Senator. One, I want to make sure 
on CAIRS because the IG did raise the issue of CAIRS, incident 
reporting system, which I think was part of your question early 
on, the question of lack of reporting. I want to make sure that 
we understand what CAIRS is and what it is not.
    CAIRS is the Department's reporting system. It is a slave 
reporting system. We also have legally required OSHA log 
reporting of those incidents, and I would like to point out 
that what the IG used to compare to the reporting in CAIRS was 
the OSHA log, which did have the reports in them and there are 
also logs that the Department of Energy's EM program uses in 
our assessment of the performance of the contractors.
    So I do not want to leave it, leave the impression that we 
did not understand what was occurring at our sites. We 
certainly did and we have multiple layers on every front in 
understanding what is happening, besides having people in the 
forefront.
    The last comment is really on my resignation. I appreciate 
your raising that. I really must say, because I have seen 
interesting comments in the media, my choice for leaving is 
truly independent of anybody else and anything else. Being that 
I have had the opportunity to sit before most of you in other 
hearings, certainly a little ruffling in a hearing is not going 
to cause me to resign this job. I had a very good job when I 
came here. I knew this was a tough one. I expected criticism. 
You and others have not let me down, but you have also been 
fair in that.
    I leave for personal reasons and they are unconnected to 
anyone else but my family.
    Senator Cantwell. Thank you. I am sure that you think we 
have been fair, is that correct?
    Ms. Roberson. Of course you have been fair.
    Senator Cantwell. Great, thank you.
    So I just think that the tension for the Northwest with 
three people leaving, the state of the whole program is 
something that we are very concerned about.
    The Chairman. Senator Craig is going to go next. Senator 
Craig, could I just take 2 minutes, then yield to you.
    I do want to say, I very much appreciate your presence on 
this committee and you are very helpful to me and very 
knowledgeable. I have two questions. One is just very precise. 
On June 4, 2004, our leading newspaper reported that the 
Department of Energy agreed to cease their efforts to bring 
wastes now stored in tanks at the Hanford site in Washington to 
the Waste Isolation Pilot Project in New Mexico. Under an 
agreement with the State, the DOE can apply in the future for 
permission to bring the sludge to WIPP, but the State would be 
given the legal right to say no.
    Will the DOE honor its commitment to New Mexico and not 
bring the waste from Hanford without first getting approval 
from the State of New Mexico?
    Ms. Roberson. Mr. Chairman, we worked with the State of New 
Mexico on an approach that includes revising the permit. As we 
have in past years, we will continue to comply with that permit 
in the future. So yes, it is our intent to fulfill that 
commitment.
    The Chairman. I want to make an observation, I want to make 
an observation with reference to the great job you have done. 
You know, in the past from year to year or maybe from 2 years 
to 2 years we changed the plan at each one of these facilities 
because outsiders attacked it, outsiders contended that it was 
never enough, although we were paying more money per year to 
clean up than we had been paying at the full operation of these 
facilities when we were producing nuclear weapons and the 
plutonium for them there.
    When you tell that to somebody, they hardly believe it. In 
other words, more paychecks were on the wall for people in the 
area to pick up than were there at the heart of the biggest 
program on nuclear, production of nuclear needs in the country.
    My observation regarding your efforts is that you did clear 
that approach--I do not know how many checks are up there, but 
you did clear up the approach of getting to a situation where 
everybody knew what they were doing and the plans were moving 
ahead through your office and people had to do them in order to 
get money from the Federal Government. Is that not correct?
    Ms. Roberson. That is correct, sir. We were insistent on 
being respectful of the taxpayers' investment.
    The Chairman. I thank you.
    Now, Senator Craig.
    Senator Craig [presiding]. Well, thank you very much, Mr. 
Chairman.
    Jessie, it is good to have you before us again, and I must 
tell you in all sincerity that your announcement of your 
leaving DOE comes as a frustration to me. I say that because we 
have had an excellent working relationship. The thing that 
excites me about your talent and your willingness to take on 
the tough issues is that we can be tough with you and you are 
going to be strong back when the facts are on the table that 
prove you are doing the job the right way, and that is 
appreciated.
    Of course, this is a highly charged political issue and it 
is much more desirous in my State politically to be anti-DOE. 
But it is wrong when it is wrong, and when you have done your 
job and you have done it well and you have the systems in place 
to do it well, oversight is important and that is your job. To 
be critical of you or to expect critical responses and clear 
responses is important. And I think you have done your job well 
and we will miss you, because you have taken on a most 
difficult task for all of the reasons that I think are clear 
out there, and for the reason that clean is never clean enough 
in the minds of some, because of what is believed to be, 
although sometimes not true. The perceptions are very important 
on issues of nuclear waste cleanup. And we thank you for your 
effort.
    Ms. Roberson. Thank you, Senator.
    Senator Craig. In Idaho DOE has emptied five tanks and they 
are clean. The question is closure, and of course I hope that 
you and Idaho can arrive at an agreement that will bring on the 
final standards for that closure. And we hope now that we have 
facilitated by our actions of the past week to make sure that 
that 2005 money to continues for the purpose of doing that.
    I guess my question to you: Are you confident that with 
enough time, in consultation with Idaho and Washington, that we 
can come to an agreement with DOE acceptable to final cleanup 
levels of their tanks?
    Ms. Roberson. I absolutely am, sir.
    Senator Craig. Do you think DOE and the State wants the 
same thing ultimately?
    Ms. Roberson. I believe that additional information-sharing 
is necessary, that collaboration is essential. I think in the 
end we all want the same thing, and that is to improve the 
environment at these sites. So yes, I do.
    Senator Craig. Do you think that accelerated cleanup has 
been successful in addressing the highest risk waste earlier 
than otherwise?
    Ms. Roberson. You know, quite frankly, Senator, every day 
when I come in to work I look only at the problems. This year 
as we went through our cleanup caucus reviews, I was astounded.
    [Pause.]
    Ms. Roberson. I was absolutely astounded by how much work 
had been accomplished and grateful to our employees for doing 
so.
    Senator Craig. Well, I think that emotion and that 
observation is clear at the INEL in Idaho. We are not done and 
we have a long way to go, but a great deal has been done and 
the environment is safer today than it might have been 
otherwise. And I think that is important to reflect that, and I 
do not blame you for being reflective of a team that does their 
job well.
    We are going to watch closely for all the reasons that the 
Senator from Washington and I believe in. We want our States to 
be clean and we want our people to be safe, and we think that 
there is a reasonable record out there, if not a very good 
record.
    How vital is the opening of Yucca Mountain repository to 
reducing the overall cost of the EM program?
    Ms. Roberson. I think it is vital to reducing the costs and 
it is vital to resolving the issue of disposition of canistered 
high-level waste and spent nuclear fuel. It is the Department's 
plan and I think it is critical.
    Senator Craig. Thank you. I do too.
    Mr. Friedman, are the worker safety statistics of the EM 
program and for DOE far better than the industry average?
    Mr. Friedman. Senator Craig, I wish I could answer that 
question. I really have not compared the statistics to the 
private sector.
    Senator Craig. Is it worth comparing?
    Mr. Friedman. Certainly it is, and I think that earlier in 
her testimony Secretary Roberson addressed that issue and it 
was impressive.
    Senator Craig. Jessie.
    Ms. Roberson. If I might, Senator. I did in my testimony, I 
cited the statistics, and those statistics are a matter of 
record. We did not quantify any on our own. We took them from 
the reports, OSHA reports.
    Senator Craig. Thank you. Well, safety records are 
important. People are of most importance to all of us, and in 
this business perfect is not good enough. We all know that, 
because it can hurt lives and put people at risk. But we do 
believe that, and it has certainly been my observation at the 
INEL, that the redundancy and the work done to assure worker 
safety is really phenomenal. That does not mean it is perfect 
and it does not mean there has not been an accident on 
occasion, because they work in sometimes relatively high-risk 
environments. But I appreciate you saying that.
    That is all of the questions I have to ask and I have to 
go, and I will leave the committee to the ranking member, 
Senator Bingaman. But I once again thank you very much for 
being here today and I thank you very much for your service to 
our country and the work you have done to move this important 
program along as far as you have. Thank you.
    Ms. Roberson. Thank you, sir.
    Senator Bingaman [presiding]. Well, thank you very much.
    Let me just ask another 5 minutes of questions and then I 
will defer to Senator Cantwell to do the same, and then we will 
mercifully let you folks go on about your business.
    Let me make another run at this jurisdictional issue with 
regard to disposal of waste in these tanks. My understanding of 
the law is that short-term storage is under the jurisdiction of 
the Department of Energy, short-term storage of high-level 
waste that DOE has in their complex. But when you get the long-
term storage or disposal, the law has always been that that is 
up to the Nuclear Regulatory Commission, and I think that was 
in 1974 that law was written.
    We now have, I am afraid, in this language we are adopting 
here in the Senate at the urging of the Department of Energy, 
we now have a situation where we are saying we are going to 
make an exception out of these tanks down in Savannah River, 
that as to those tanks the DOE can permanently dispose of high-
level waste in those tanks without any NRC oversight.
    Now, the NRC does not have oversight because we did not 
give it to them back when the tanks were built. We assumed 
those tanks were short-term, that the waste would be in there, 
it would be taken out and then the NRC would get jurisdiction. 
Now we are essentially saying, okay, some part of that waste 
can remain in those tanks permanently, can be grouted over, and 
NRC jurisdiction does not apply.
    That concerns me. Now, am I misinterpreting what is going 
on or is that your understanding of what is going on as well?
    Ms. Roberson. Well, aside from whatever action the Senate 
chooses to take, Senator Bingaman, the NRC has long held and 
clarified itself that it does not have jurisdiction over those 
decisions, over the Department of Energy.
    Senator Bingaman. There has never been permanent disposal 
of any high-level waste in these tanks. That is why they have 
never had authority, right?
    Ms. Roberson. Well, I guess let me say this. We may 
disagree, but I believe the tank waste that we are discussing, 
the residue in the tanks that we are talking about mixing with 
grout--not covering over; we have a tremendous amount of 
testing and experimentation and now actually have real results 
from the two tanks that we have closed at Savannah River of how 
the grout and the residues mix.
    We believe that meets the requirements, performance 
requirements for low-level waste. We do not rely long-term on 
the tank structure as a protective mechanism.
    Senator Bingaman. So you say that this is no longer 
something that ought to be under the authority of the Nuclear 
Regulatory Commission because you have treated it in such a way 
with this grout or whatever that it is no longer----
    Ms. Roberson. I do not want to confuse the two issues. We 
have worked with the Nuclear Regulatory Commission, but the NRC 
has not had that authority and they themselves, even as late as 
2000 in a response to an NRDC petition in Savannah River waste 
tanks, NRC made clear that it did not have that authority over 
the Department of Energy.
    Senator Bingaman. Let me ask, Mr. Friedman, did you look at 
the issue--this is on totally different issue that you did your 
analysis on--did you look at the issue of the independence of 
this Environmental Health Foundation from other Hanford 
contractors? Do you think that maintaining independence is an 
important feature for future health care providers at Hanford? 
Is that something that you looked at?
    Mr. Friedman. Let me ask Mr. Hartman to answer that 
question, Senator.
    Mr. Hartman. We did not specifically examine the 
independent relationship and whether or not it is the best 
solution. What we did find during our criminal investigation is 
that there was a pull and tug between the foundation and the 
contractors on-site in the treatment of the patients and the 
recordability determinations, and that that relationship was 
contractually mandated. But we did not find any indicators of 
misconduct or criminal conspiracy.
    Senator Bingaman. So you are saying there was a pull and 
tug in a healthy sense?
    Mr. Hartman. Correct.
    Senator Bingaman. There should have been a pull and tug and 
there was?
    Mr. Hartman. Correct.
    Senator Bingaman. Let me ask about one other issue that I 
have talked to you about, Ms. Roberson, before and that is the 
Trupact III. In the past, as you know, we have had full-scale 
testing of Trupact II, and you folks have been proposing that 
you go forward with the use of a Trupact III shipping container 
with half-scale testing instead of full-scale testing.
    Could you explain to us why that makes sense, why we should 
not go ahead and have full-scale testing of Trupact III just as 
we had full-scale testing of Trupact II?
    Ms. Roberson. Well, Senator, first of all we plan to meet 
the requirement of the NRC during its certification process. In 
fact, for the Trupact II's the necessary regulatory testing 
required half-scale testing, although the Department did full-
scale testing. To meet the performance criteria to support 
NRC's analysis, half-scale testing was required.
    We believe that half-scale testing is required for Trupact 
III's. They have to meet the exact same performance 
requirements. If the NRC determines that full-scale testing is 
necessary we will do that. But as we believe right now, it will 
not be required.
    Senator Bingaman. But you made an independent judgment 
that, in spite of the NRC requirement, you would do full-scale 
testing of Trupact II? I mean, the Department did.
    Ms. Roberson. The Department did, I am sure in consultation 
with others. It was a part of the WIPP startup approach. It 
needed to be done to ensure that there remained confidence in 
the operation on the shipping containers.
    We believe that that performance standard was validated and 
we have to satisfy the same performance requirements with the 
Trupact III.
    Senator Bingaman. Well, as I have stated to you, I believe 
in my office on several occasions, I think that there was a 
real value in doing full-scale testing of Trupact II and I hope 
that the Department will determine to do the same thing on 
Trupact III. I think it would have a value again in ensuring 
public confidence in the safety of that container.
    Ms. Roberson. Senator Bingaman, if I might. It certainly 
seems to be puzzling you. I don't feel like I am doing justice 
to you regarding DOE's determining whether what is left, what 
residual material is left and grouted, is adequate versus NRC. 
That is certainly again, like I said, the choice of the 
Congress. I do not want to leave you with the impression that 
we have not truly spent a lot of time with our NRC counterparts 
in this area. For the last two decades we have. We have ensured 
that the NRC reviews every one of our tank closure plans 
specifically.
    We have worked very closely with the NRC. We believe we 
actually have some requisite experience in this arena as well, 
too. But we have also ensured that we have benefited from 
theirs.
    Senator Bingaman. Well, as I tried to say, I think this 
distinction between DOE having jurisdiction of short-term 
storage and NRC having jurisdiction of long-term storage and 
disposal has served us well. As I understand what we are about 
to legislate as part of this defense bill, this would be 
writing an exception into that law. This would essentially say 
DOE can permanently dispose of high-level waste in these short-
term tanks, whereas the NRC has jurisdiction of all other high-
level waste disposal.
    Ms. Roberson. If I might, we do believe that we are 
removing the high-level waste from the tanks and vitrifying it 
for disposal in a geologic repository. We believe that the 
residual waste that will remain in the tanks is being treated 
in accordance with the law and is other than high-level waste 
in the tanks, and we believe that NRC agrees.
    Senator Bingaman. So your position is there will be nothing 
in there which by today's definition, by the NRC definition, 
would constitute high-level waste?
    Ms. Roberson. We believe that we are not leaving high-level 
waste in the tank.
    Senator Bingaman. Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman. I would like to 
follow on a line of your questioning, but I also have so many 
other issues here that we would like to get answers to.
    Secretary Roberson, on this issue, in answering Senator 
Craig's question you said one of the reasons to get this 
accelerated program is to get the high-level waste and get it 
to Yucca Mountain; is that correct?
    Ms. Roberson. I believe his question was do I think Yucca 
Mountain is critical to the environmental cleanup program and I 
certainly do.
    Senator Cantwell. In the EIS for Yucca Mountain, in the 
appendix J of that, it basically said that the Department was 
going to take as little as 17 percent of the high-level waste 
from the Hanford Reservation and take it to Yucca Mountain. Is 
that still the intent?
    Ms. Roberson. I cannot tell you that I am knowledgeable of 
the specific details. I wish I had my comrade Dr. Chu here. But 
my experience in this program, I do not know if it is 17 
percent, but if 17 percent is what they start with, then I 
think that is 17 percent less that we have left at the site. 
But I do not know if that is indeed the current information. I 
am not familiar with it.
    Senator Cantwell. Well, I think you can imagine how 
concerned Washingtonians will be if they think only 17 percent 
of the high-level waste at Hanford is going anywhere. If it is 
staying right there then Washingtonians are very concerned 
about all the changes to definitions of high-level waste. They 
are very concerned about how the cleanup program works. They 
are worried about the science and the proof of the science, 
because if only 17 percent is going to leave the State and we 
keep getting illegal shipments, as we are, from South Carolina 
and Savannah River that we have to take the DOE to court on, we 
are very concerned about these definitions and how they are 
changed.
    One question I wanted to ask you, because I know you are 
very concerned about the safety of the facility, and I am 
certainly very concerned about the science, because I think 
that is what this debate really should be about, what is the 
definition of high-level waste and what does the science say 
that we should do with high-level waste? One issue we are 
dealing with at the Hanford site is the leakage of underground 
storage tanks. About one million gallons of waste is making its 
way to the Columbia River.
    What is the program for treating tritium iodine-129?
    Ms. Roberson. Well, I do not know that I could specifically 
tell you. I probably have--no. If you would like I can ask Mr. 
Schepens to join me and respond to that.
    Senator Cantwell. That would be great.
    Ms. Roberson. Then if I could, I would like to come back to 
the earlier comments.
    Mr. Schepens. My name is Roy Schepens and I am the Manager 
of Office of River Protection.
    Relative to tritium, there is no known technology----
    Senator Bingaman. I think there is a button there that 
needs to be lit up. Thanks.
    Mr. Schepens. Relative to tritium, there is no known 
technology that treats tritium today. We are in collaboration 
continually with the Savannah River Site because they have that 
same problem and we are continuing to look and study. If some 
technology were to become available, then we would look at 
implementing that in the future.
    Relative to iodine-129, we are continually looking at how 
we are going to handle the second stream wastes coming off the 
vitrification plant. We have that documented in our high-level 
waste system plan and we are continuing to look at technologies 
for treating iodine-129.
    Senator Cantwell. I am sorry, did you want to add 
something?
    Mr. Schepens. Relative to the tank leakage, the Department 
of Energy has conservatively estimated, that there has been 
about potentially 67 leaky tanks over the years of operation 
and conservatively estimated that they could have leaked a 
million gallons. We have a beta zone monitoring program which 
we work with the Department of Ecology. Every year we do 
testing of it, we analyze it, we look at how it is moving. The 
good news is it is not moving very much. It is basically where 
it is today.
    This is the leakage from the high-level waste tanks. It has 
not--and the reason why it does not move very much is because 
most of the radionuclides that come out of the tank are what is 
called non-soluble radionuclides. Non-soluble radionuclides 
means that they get trapped in the sand and they actually 
cannot move. They stay there. The sand serves as a filter and 
prevents it from moving.
    Also, in the State of Washington----
    Senator Cantwell. Are you saying that there is no leakage 
into the Columbia River at this time?
    Mr. Schepens. Not from the high-level waste tanks. There is 
none from the high-level waste tanks. From what we have been 
able to tell, none of the high-level waste has reached the 
Columbia River.
    Senator Cantwell. Are you saying that there is no nuclear 
waste reaching the Columbia River?
    Mr. Schepens. No, I am saying from the high-level waste 
tanks.
    Senator Cantwell. Okay. What nuclear waste from the Hanford 
Reservation is reaching the river today?
    Mr. Schepens. You would have to talk to Keith Klein. I am 
not familiar with that area. I am over the high-level waste 
system. But from the high-level waste tanks----
    Senator Cantwell. You are aware that there is leakage into 
the Columbia River?
    Mr. Schepens. I believe there is----
    Senator Cantwell. There are plumes?
    Mr. Schepens. There are plumes into, yes, but not from the 
high-level waste tanks.
    The good news about Hanford is--and I came from Savannah 
River to Hanford--is Hanford does not get a lot of rain. We 
only get seven inches of rain a year, and the only way that 
radionuclides are going to be driven down to the aquifer are 
through rain water.
    One of the things that we have implemented in the tank 
farms, per the Department of Ecology, is we actually have built 
up a lot of culverts around our tank farms. So we minimize any 
rain water so that it does not get over the areas that are 
contaminated, so it does not drive the contamination further 
down quicker.
    Senator Cantwell. How can we say that we are safer if we do 
not know how we are going to clean up the tritium which is in 
that plume? Are you saying a conservative estimate is a million 
gallons? Are saying we do not have a technology solution for it 
today?
    Mr. Schepens. For the tritium, there is not a technology 
solution for it and that is something that we are looking at 
how we can deal with that in the future.
    Ms. Roberson. We are investing in research in this area for 
the complex.
    Senator Cantwell. Great, I am glad we are. My point is 
everybody wants accelerated cleanup and everybody wants it 
based on science. That is what the debate is not about right 
now as it relates to the floor discussion. This would have been 
the appropriate committee to have it and you could have had the 
discussion about what can be treated and what cannot be 
treated. What does the science say? Who should have oversight? 
Who historically has had oversight?
    But we are still letting one deal be cut by one State and 
one Federal agency, and I think Senator Bingaman's questions 
have pointed that out.
    Mr. Schepens. If I could clarify one----
    Senator Cantwell. I know my red light is going on and I do 
have a couple of other questions that are really important to 
the Northwest. Could I get some response on that, and then if 
we have time--or we can maybe even get letters or what have 
you.
    The other issue that has arisen out at Hanford deals with 
the RFP for the river corridor closure project. Historically, 
pensions for the Hanford site plan have protected employees. 
Recently sections of those contracts have been removed so that 
now the requirement is that successor contracts only pay 
employees a pension for 5 years. Why is that being changed?
    Ms. Roberson. The Department issued its draft RFP. It has 
taken input both from bidders, from the public, and it is still 
considering modifications to the final. It has not issued the 
final yet. So I do not know if that will change in the final or 
not.
    Senator Cantwell. Why would you take the hard work of 
employees over years and years at the Hanford Reservation, who 
have been guaranteed a pension for life, and then all of a 
sudden say to the workers out there that we are shortchanging 
you on a pension?
    Ms. Roberson. Well, Senator Cantwell, I honestly, having 
looked at this at our different sites, we may simply disagree. 
I do not believe we are shortchanging the employees. What we 
are doing is trying to arrange our contracts to fulfill and 
complete specific tasks efficiently and to ensure that we have 
in place the parameters to ensure that that is done. So we size 
that contract according to the specific project, and we believe 
that was appropriate.
    Senator Cantwell. What does that mean?
    Ms. Roberson. That means we arranged our contract--in the 
draft RFP our goal was to arrange our contract to ensure that 
the contractor, whomever that may be, the successful bidder and 
its work force were really focused on doing the work.
    Senator Cantwell. Without a pension more than 5 years?
    Ms. Roberson. No, there is a pension plan built in.
    Senator Cantwell. For 5 years there is a pension. You get a 
pension for 5 years.
    Ms. Roberson. There is a pension--we maintained the site 
pension plan for 5 years and the successful winner will have to 
have an additional pension plan for new employees that they 
bring in. That essentially covered vested employees.
    Senator Cantwell. I think this is quite a significant 
change and I think you will hear from lots of people in the 
Tri-Cities that it is quite significant. If you are saying that 
the Hanford site is a closure project and you are looking at it 
this way, then why are other sites at Rocky Flats and Ohio, 
which have also been closure projects, not getting short-termed 
on their pension program as they have their RFP's out?
    So I am just questioning why, and maybe we can look into 
that.
    Ms. Roberson. I would be glad to follow up with you. Having 
a little familiarity with the contracts at the Ohio sites since 
those were redone since I have been there, as well as the Rocky 
Flats contract, I think you will find a significant amount of 
similarity in our approach. But we may not have done as good a 
job as we could in explaining to you what we were trying to 
accomplish. I would be glad to do that.
    Senator Cantwell. Thank you, I appreciate that. I would 
say, as anxious as the entire State is about living up to the 
Tri-Party Agreement of cleaning up 99 percent, Hanford wants to 
be known for the best cleanup, not just in the United States 
but globally, and they want it done in the most efficient 
fashion.
    But people also want to know that the work force is going 
to be taken care of and that the work force is not going to be 
shortchanged in the future.
    I have a couple other questions and then I want to give you 
a chance to answer or remark on anything else that you wanted 
to make comment on.
    Senator Bingaman. Why don't you go ahead and ask your two 
or three questions and then let them respond, and then we will 
put the rest in the record.
    Senator Cantwell. Right, thank you, Mr. Chairman.
    Senator Bingaman. Great.
    Senator Cantwell. Does the Department have cost estimates 
on what happens if grout does not work?
    Ms. Roberson. The Department has, I would say, an 
experimentation or research program to continue to work in this 
area. I am not sure that I understand the question, I am sorry.
    Senator Cantwell. If grout does not work and instead of a 
liquid substance, you are dealing with basically a concrete 
substance, has the Department gotten estimates of what it would 
take to clean that kind of material up if the grouting process 
were determined not to be successful?
    Ms. Roberson. Well, we did our testing program prior to 
using grout, so we have quite a bit of confidence that it does 
indeed serve the purpose in which it is intended. You mean if 
10 years down the road we have to go back in and remove?
    Senator Cantwell. Yes.
    Ms. Roberson. One of the things that we do is we actually 
assess, through the NEPA process, just that option. I cannot 
recite verbatim for you here, but we have done that at each of 
the sites. We actually do evaluate the worst case, although----
    Senator Cantwell. I am happy to hear more, but can I get a 
few other things just on the table, then you can answer 
whatever.
    Is there any discussion, documentation, emails or 
communication within the agency that you know of for the 
development of a new plutonium pit at Savannah River?
    Ms. Roberson. Goodness no. I have so many of my own. I am 
not familiar with that at all.
    Senator Cantwell. So you know of no discussion within the 
agency?
    Ms. Roberson. And I would not have a need to know. No, I do 
not.
    Senator Cantwell. Then the last question is, can you just 
explain how bonus payments work for tank closure? What do 
contractors get when they close a tank? Do they get a bonus 
payment? I am not familiar with that structure.
    Ms. Roberson. Our structure is different at each site 
because we have some relatively different structure to our 
contracts, Savannah River, Idaho, and Hanford. Specifically at 
Hanford----
    Mr. Schepens. I can speak to that. They get paid on an 
incremental basis based upon completing work once they get so 
much percentage of the waste out of the tank. Like S112 right 
now, we are pumping waste out of S112. When they get it down to 
a certain volume percentage, and they have done it safely and 
properly, then they get a performance fee for that. So it is 
based upon conducting real work safely.
    Senator Cantwell. What would that bonus payment be?
    Mr. Schepens. I do not have it off the top of my head, but 
it is written in their contract.
    Senator Cantwell. Are we talking thousands or millions?
    Mr. Schepens. It is hundreds of thousands of dollars. And 
when the job is done it could be a million dollars. I just do 
not know off the top of my head.
    Senator Cantwell. So you would be surprised if it was 
several--if it was more than, say, $100 million?
    Mr. Schepens. Oh, yes, yes.
    Senator Cantwell. Thank you.
    Mr. Schepens. Could I answer your----
    Senator Cantwell. I just want to say to the chairman, thank 
you so much for the hearing and for the time to ask these 
questions. They are important to the State of Washington on a 
whole variety of perspectives, and I think most people could 
understand, given that we have the largest cleanup project in 
the United States, that we are very proud of the history that 
Washington State has in the Cold War, but we also want to make 
sure that we are getting our due attention for the most complex 
of the challenges of cleanup.
    So I thank the witnesses for their time in answering these 
questions.
    The Chairman [presiding]. Well, Senator, let me say----
    Ms. Roberson. Mr. Chair--I am sorry.
    The Chairman. Somebody want to?
    Ms. Roberson. I did, yes.
    The Chairman. Please.
    Ms. Roberson. If you would grant me just one moment to 
follow up on one of the questions Senator Cantwell asked and I 
do not believe we completely responded to, really regarding the 
leaking tanks. As you well know, one of the things we are very 
proud of is we are about 99 percent complete removing waste out 
of the high-risk single-shell tanks. That was an important 
milestone for the State and an important milestone for us.
    One of the things that we have to consider when we talk 
about the contaminated soil and the contaminated groundwater is 
a step-wise process in which we can get to that. Since many of 
these tanks are the age that they are, it is unwise for us to 
be too aggressive at remediating inside the tank farms until we 
have the tanks cleaned and stabilized. It is important to do 
that in that order to ensure the safety of the work force. So 
we have every intention of doing that, but we have to do it in 
that step-wise fashion.
    The Chairman. Senator, let me say that I am glad that we 
can use our committee for issues like this. I am not from your 
State. I know a lot about these problems because I do work on a 
lot of nuclear issues. But I do think, while it is tremendously 
important that you get a chance to get your questions answered, 
I do also think that it is important for you--not lecturing 
you, just stating--that it is important for you to look at the 
issues as objectively as you can, because before you were here 
as a Senator there were many, many contradictory proposals for 
cleaning up your State. And the poor Federal Government that 
tried to do it was having to change every couple of years 
because a new approach was offered by those who claimed to know 
more than the Federal Government.
    Frankly, from my standpoint it had reached a point where I 
was not sure what her predecessors were supposed to do, and 
that was very frustrating. It turns out that many times the 
changes and the objections and the arguments and the lawsuits 
came from people, not you, not your people, that really did not 
want to let this thing happen.
    Frankly, you know that it is there and we cannot be party 
to changing our minds every couple of years and never getting 
anything done. I think what I have heard from you so far is 
that you want specific conclusions because your people are 
confused, and that is what we ought to do, do what you are 
asking in terms of the confusion.
    I do not think we are going to get another one any better 
than her. When she established some rules, it was terrific for 
the projects, less for yours because yours is so complicated. 
But if you went up to Colorado, where we had the plutonium 
plant and we went so long without being able--and then we come 
up and it is the first project to put its head up and say, we 
now have a plan--is that not right--we know how it is going to 
go, we know when it is going to be completed, and these are the 
guidelines and strategy points. I mean, to me it was like, it 
cannot be true; I mean, this cannot be happening.
    Well, I brought them up to my office and they said it was 
going to happen. We brought the people from the area and they 
said: We are satisfied.
    So I am very hopeful that by doing it the way we are doing 
that we may end up with your area and your concerns being 
satisfied in open session by your getting answers that you need 
and you make the decisions after we have heard things and we do 
not change them all the time. That is what I hope.
    Now, I want to say----
    Senator Cantwell. Could I, Mr. Chairman, just add one 
comment to that?
    The Chairman. Sure.
    Senator Cantwell. I certainly do appreciate your indulgence 
in having the hearing and having that open forum, because I 
agree, nothing could be more important than basing this 
discussion on science and not changing that at a whim. 
Certainly I know you know these issues very well. Your recent 
State debate and law settlement between New Mexico and DOE 
shows how much your State has wrangled them on these various 
issues as well.
    You know, I think in my short tenure here--and I certainly 
respect all the members who have wrestled with this issue 
before--and I do not know if the chairman would be interested 
in my personal opinion, but I think the head of DOE ought to be 
like the Federal Reserve. You ought to appoint them for 12 
years or for life or until we get this cleaned up, because I do 
think that the fluidity of change and people does cause new 
ideas and new discussion.
    I think the last thing that anybody wants from a public 
perspective is that OMB says you got to do it quicker and 
cheaper. I think that your help today gets the answers on the 
table. So I appreciate it.
    The Chairman. I will tell you, Senator, if you want to get 
somebody to take her job for 12 years----
    [Laughter.]
    The Chairman [continuing]. You would have to put her in 
involuntary servitude. We would have to tie a rope around her 
and say, well, you cannot go out of the Energy Department's 
office because the rope will get you, because actually it is 
too tough.
    To the rest of you, I am very sorry that--you know, Mr. 
Friedman, 99 percent of the hearing had nothing to do with you 
and I should have let you go. But I hope, other than my 
question, which was not intelligible, that the rest of it went 
fairly well.
    With that, we stand adjourned to the call of the chair. 
Thank you.
    [Whereupon, at 12 o'clock noon, the hearing was adjourned.]


                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

                                      Department of Energy,
                                     Washington, DC, July 14, 2004.
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman: This is in response to your June 30, 2004, 
letter in which you forwarded questions submitted for the record for 
your June 17th hearing on Environmental Cleanup Program of the 
Department of Energy and Issues Associated with Accelerated Cleanup. 
Enclosed please find my responses to those questions.
    Please do not hesitate to contact me if I can be of any additional 
assistance.
            Sincerely,
                                       Gregory H. Friedman,
                                                 Inspector General.
[Enclosure.]

    Question 1. Would you briefly summarize actions that you recommend 
to address concerns of workers and avoid future recurrences of these 
issues?
    Answer. The Office of Inspector General's (OIG) June 1, 2004, 
memorandum to the Secretary contains several recommended actions. In 
summary, we observed several worker health and safety protocols that 
need to be addressed by Federal managers at the Hanford site. 
Specifically, action is needed to ensure that:

    1. Industrial Hygiene Technicians (IHT) take vapor exposure 
readings in a timely manner following reported exposure incidents at 
the tank farms and document exposure readings in appropriate reports.
    2. Site employees on work restriction are assigned meaningful 
duties.
    3. Patient care is not inappropriately influenced by whether the 
care will make an injury or illness ``recordable. ``
    4. Work restrictions following injuries and illnesses are 
identified and applied in a timely manner.

    Additionally, we found that the Department did not always utilize 
contractor self-assessments and internal quality assurance reviews when 
evaluating performance relative to the provision of contractor 
occupational medical services. Internal reviews, when coupled with 
effective contractor metrics, can provide useful performance 
information to responsible Federal program officials.
    During our investigation, it became clear that, despite major 
health and safety efforts by the Department of Energy, a significant 
number of individuals interviewed had unresolved concerns about the 
safety of the work at Hanford, the potential for health problems as a 
result of this work, and the quality of occupational health care 
provided to Hanford employees. I suggested in my letter to the 
Secretary that an action that would be beneficial would be a more 
effective and robust program for dealing with employee concerns. We 
felt this would have the prospect of building employee and public 
confidence in worker safety at the Hanford site.
    Question 2. CH2M HILL has recently announced additional steps to 
protect workers at the tank farms at the Hanford Site. Will these steps 
be effective in enhancing worker safety at Hanford?
    In your view, have recent actions by the main contractor CH2M HILL 
gone far enough to resolve these issues?
    Answer. We understand that CH2M HILL announced that they have taken 
the following additional steps to address employee concerns and 
strengthen their efforts while they conduct a more comprehensive 
review: Enhanced Personal Monitoring; Expanding Breadth and Expertise 
of Industrial Hygiene Program, to include the recent selection of a 
senior-level position of Environmental Health Director; and providing 
Supplied Air Respirators for Employees.
    Additionally, we understand that effective, May 24, 2004, CH2M HILL 
created a new ``Workplace Injury Benefits Advisor.'' CH2M HILL stated 
in news release that, ``This newly created ombudsman-like position is 
sponsored by CH2M HILL corporate offices as part of the ongoing 
commitment to strengthen our programs for our workforce.''
    At the present time, the Office of Inspector General is unable to 
assess the true impact of these measures on worker health and safety, 
given the limited passage of time. All of these actions, however, are 
important first steps and should contribute in enhancing worker safety 
at the Hanford site. It is important to recognize that this should be a 
fluid process and the Department should constantly be looking for 
opportunities to improve worker safety at Hanford as well as their 
other complexes.
                                 ______
                                 
                              Department of Energy,
               Congressional and Intergovernmental Affairs,
                                     Washington, DC, July 14, 2004.
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman: On July 21, 2004, we sent you the edited 
Transcript of the June 17, 2004, testimonies given by Jessie Hill 
Roberson, Assistant Secretary for Environmental Management, and Glenn 
S. Podonsky, Director, Office of Security and Safety Performance 
Assurance, regarding evaluation of the Environmental Management Program 
of the Department of Energy and Issues Associated with Accelerated 
Cleanup.
    Enclosed is the Insert that was requested by Senator Wyden. Also 
enclosed are the answers to three questions that you submitted for the 
hearing record. The remaining answers are being prepared and will be 
forwarded to you as soon as possible.
    If we can be of further assistance, please have your staff contact 
our Congressional Hearing Coordinator, Lillian Owen, at (202) 586-2031.
            Sincerely,
                                          Rick A. Dearborn,
                                               Assistant Secretary.
[Enclosures.]

  Questions From the Senate Committee on Energy and Natural Resources

    There have been serious allegations at the Hanford Site, even 
allegations of criminal activities, related to aspects of the cleanup 
program. I appreciate that the Secretary requested careful 
investigations of these charges by both of your Offices. I believe I am 
correct that both of your reports did not support those accusations of 
criminal activities.
    I'm glad this was your conclusion, but I'm concerned about the 
workers' concerns that led to the accusations in the first place.
    Question 1. Would the two of you briefly summarize actions that you 
recommend to address concerns of workers and avoid future recurrences 
of these issues?
    Answer. Our investigation report contained a number of 
recommendations to address weaknesses in the industrial hygiene program 
including the development of a long-term comprehensive and documented 
protection strategy to support a technically defensible set of 
engineered, personnel protective equipment and administrative controls. 
It was further recommended that the DOE Office of River Protection 
Project strengthen its oversight of the CH2M HILL industrial hygiene 
(IH) program to ensure that timely and effective actions are taken to 
correct weaknesses in the IH program and to prevent reoccurrences.
    At the conclusion of the investigation, the DOE Richland Operations 
Office was in the process of transitioning to a new occupational 
medical site contractor. We provided some recommendations for further 
enhancing this program that could be incorporated into the new 
contractor's processes. The recommendations included establishing clear 
expectations from DOE for interfaces between the occupational medical 
contractor, the local DOE and the various operating contractors to 
integrate the occupational medical program activities on the Hanford 
Site. We also recommend strengthening DOE oversight of the occupational 
medical program. The injury and illness reporting processes require 
coordination and integration of the occupational medical contractor and 
the various contractors operating on the Hanford Site. This was an area 
of increased local DOE oversight over the last year and improvements in 
the rigor and formality of these programs were evident. It was our 
recommendation that DOE Headquarters initiatives to improve the 
consistency and timeliness of reporting of DOE and OSHA injury and 
illness data be accelerated and that protocols for generating Record of 
Visit information from the occupational medical contractor be improved.
    Question 2. In your view have recent actions by the main 
contractor, CH2M HILL gone far enough to resolve these issues?
    Answer. At the conclusion of the Office of Independent Oversight 
and Performance Assurance (OA) investigation, the site had initiated a 
number of conservative interim actions to ensure that workers 
conducting tank farm activities were adequately protected. The site 
required respirator use for all access to the tank farms as an interim 
measure. Breathing air or self-contained breathing apparatus are now 
required in areas where ventilation systems are inoperable. Personal 
monitoring and sampling were expanded. There was an increase in the 
quality and number of instruments. Improvements to engineering controls 
were evaluated and implemented to further reduce the potential for 
worker exposure to vapors.
    Worker exposures to tank farm vapors are a long-standing concern. 
The site has initiated a number of actions to involve the workers and 
to better understand their concerns. Some of these actions were well 
underway at the time of the OA investigation, however workers are still 
concerned because some workers are experiencing symptoms. We 
recommended that the site continue to ensure frequent communication 
between the DOE, CH2M HILL leadership and workers regarding vapor 
issues. The site should develop and disseminate information regarding 
what is not known about tank farm vapors.
    The tank farm operations have been subject to a number of recent 
external reviews including the OA investigation. Collectively, these 
reviews serve as a good basis for needed process improvements. While 
the worker trust issue will be more difficult and take more time to 
address, the improved controls (more personal sampling, improved 
instrumentation) in the industrial hygiene worker program, coupled with 
the development of a more in-depth technical evaluation in support of a 
long-term defensible worker protection strategy, should improve worker 
safety and communication of these safety concerns.

                        LEGACY MANAGEMENT SITES

    Question 8. Has DOE identified which sites will be Legacy 
Management sites?
    Answer. The Office of Legacy Management will be responsible for 
those sites where the Department has completed cleanup and there is no 
ongoing Departmental mission (e.g., Rocky Flats and Fernald). Legacy 
Management will also be responsible for any federal long-term 
stewardship responsibilities at sites remediated under the Uranium Mill 
Tailings Radiation Control Act (UMTRA), surveillance and maintenance at 
uranium mill tailings disposal sites that are transferred to the 
Department in accordance with UMTRA, and any federal long-term 
stewardship responsibilities at the sites associated with the Formerly 
Utilized Sites Remedial Action Program following the completion of 
active remediation by the U.S. Army Corps of Engineers.


</pre></body></html>
